       REDACTED – PUBLIC VERSION




SENTINEL AUDIT II: STATUS OF
   THE FEDERAL BUREAU OF
    INVESTIGATION’S CASE
     MANAGEMENT SYSTEM

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-03
           December 2006


       REDACTED – PUBLIC VERSION
   SENTINEL AUDIT II: STATUS OF THE FEDERAL BUREAU OF
       INVESTIGATION’S CASE MANAGEMENT SYSTEM∗

                       EXECUTIVE SUMMARY

      On March 16, 2006, the Federal Bureau of Investigation (FBI)
announced that it had awarded a contract to Lockheed Martin Services,
Incorporated (Lockheed Martin) to develop the Sentinel information
and investigative case management system in 4 phases. The cost of
the four phases of the Lockheed contract was $305 million, and the
FBI estimated that it would cost an additional $120 million to provide
various contractor support and staff the FBI’s Sentinel Program Office,
with the total estimated cost of Sentinel at $425 million. The initial
schedule for the Lockheed Martin contract calls for all phases to be
completed in December 2009.

      The Sentinel project, which uses commercial off-the-shelf
components, is intended to provide the FBI with an electronic
information management system, automated workflow processes,
search capabilities, and information sharing with other law
enforcement agencies and the intelligence community. The FBI
Director has stated, “Sentinel will strengthen the FBI’s capabilities by
replacing its primarily paper-based reporting system with an electronic
system designed for information sharing. Sentinel will support our
current priorities, including our number one priority: preventing
terrorist attacks.”1

       Sentinel follows the FBI’s unsuccessful 3-year, $170 million
effort to develop a modern investigative case management system
called the Virtual Case File (VCF) as part of the FBI’s Trilogy
information technology (IT) modernization project. The VCF, and now
Sentinel, was intended to provide the FBI with a modern system so
that the existing obsolete Automated Case Support (ACS) system
could be retired. As detailed in the Office of the Inspector General’s
(OIG) February 2005 audit report on the FBI’s Trilogy project, the VCF
project failed for a variety of reasons, including poorly defined design

      ∗
       THE FULL VERSION OF THIS REPORT INCLUDED INFORMATION THAT THE
FBI CONSIDERED TO BE SENSITIVE PROPRIETARY INFORMATION. TO CREATE THIS
PUBLIC VERSION OF THE REPORT, THE OIG REDACTED (DELETED) THE SENSITIVE
PORTIONS AND NOTED THAT THE INFORMATION WAS REDACTED.
      1
        FBI Press Release entitled FBI Announces Award of Sentinel Contract,
March 16, 2006.


                                       -i-
requirements, lack of mature Information Technology Investment
Management (ITIM) processes, and poor management continuity and
oversight.2

      The Sentinel contract, awarded to Lockheed Martin through a
Government-Wide Acquisition Contract (GWAC), is a cost-plus-award-
fee contract that uses task orders to complete work for each phase of
the project.3 While this type of contract proved problematic under
Trilogy, we have found that the FBI has made considerable progress in
establishing controls and processes required to adequately manage a
major IT development project such as Sentinel and to bring it to a
successful conclusion – if the processes are followed and controls are
implemented as intended.

      The OIG performed this audit of the Sentinel project at the
request of the FBI Director and congressional appropriations and
oversight committees. This audit is the second in a series of audits
that the OIG intends to conduct, as Sentinel progresses, to evaluate
the progress and implementation of Sentinel. The first audit, issued in
March 2006, assessed the FBI’s pre-acquisition planning for and
controls over Sentinel.

       The objective of this second audit was to determine: (1) the
progress the FBI has made in resolving the concerns identified in our
first report on the planning for Sentinel, and (2) if the contract with
Lockheed Martin and the FBI’s ITIM processes and project
management are likely to contribute to the successful implementation
of Sentinel. Our future audits will examine the progress of Sentinel
over its four phases and assess whether cost, schedule, performance,
and technical benchmarks are being met.

Background of Sentinel

      A major objective of the FBI’s IT modernization project is to
replace the FBI’s antiquated ACS system. During a variety of OIG
reviews over the past several years, we reported that ACS uses
outmoded technology, is cumbersome to operate, and does not
provide necessary workflow and information-sharing functions.

       2
         The Department of Justice, Office of the Inspector General, The Federal
Bureau of Investigation’s Management of the Trilogy Information Technology
Modernization Project, Audit Report Number 05-7, February 2005.
       3
         An award fee is a financial incentive provided to a contractor based on the
contractor’s performance.


                                        - ii -
       The FBI expects that Sentinel will provide it with a web-enabled
case management system that includes records management,
workflow management, and evidence management; and records
search and reporting capabilities, all of which will replace its current
paper-based case management system. The FBI intends to implement
Sentinel in four phases over 45 months, with each phase providing
distinct capabilities until the overall project is completed in December
2009. The FBI expects to complete each of the phases in 12 to 16
months, with the phases overlapping by 1 to 2 months. For example,
Phase 2 will begin about 2 months before Phase 1 is completed.

     According to the FBI, the four phases will provide the following
capabilities.

      •   Phase 1 will provide the web-based Sentinel portal. Initially,
          the portal will allow access to ACS data and eventually to data
          in the new case management system. It will also include a
          case management “workbox” that will summarize a user’s
          workload (the case files an agent or analyst is working on),
          and provide automatic indexing in case files according to
          person, place, or thing.

      •   Phase 2 will begin the transition to a paperless case records
          system by providing electronic case document management
          and a records repository. A workflow tool will support the
          movement of electronic case files through the review and
          approval process, while a security framework will provide
          access controls and electronic signatures.

      •   Phase 3 will provide a new Universal Index (UNI), which is a
          database of people, places, or things that relate to a case.
          Expanding the number of attributes in the system will enable
          more precise searching and will enhance agents’ ability to
          “connect the dots” among cases.

      •   Phase 4 will implement Sentinel’s new case management and
          reporting capabilities, including the management of tasks and
          evidence. During this phase, Sentinel will be connected to
          ACS, data on closed cases will be migrated from ACS to
          Sentinel, and the process to retire ACS will begin.

     We reviewed the progress the FBI has made since our March
2006 report, the requirements of the Sentinel contract, the FBI’s


                                  - iii -
application of its ITIM processes through its Life Cycle Management
Directive (LCMD), and the controls the FBI has established over the
Sentinel project to help avoid the problems the FBI encountered with
the Trilogy project.

       We found that the FBI has resolved most of the concerns we
identified in our first Sentinel audit, although some aspects of those
concerns as well as some new concerns identified in our current audit
bear continued monitoring. Specifically, the FBI has made progress in:
(1) establishing cost tracking and control processes, (2) implementing
an Earned Value Management (EVM) system to help measure progress
toward project baselines, (3) developing plans for the Independent
Verification and Validation (IV&V) of the system software to ensure it
will operate as intended, (4) developing information sharing
capabilities, and (5) hiring more Program Management Office (PMO)
staff.

      Among the areas warranting continued monitoring by the FBI,
the OIG, and other oversight entities are the: (1) funding of the
Sentinel project and the effect on the FBI’s operations or other FBI
projects of any reprogramming of funds that might be required
(2) accuracy of the estimated cost of the project, (3) availability of
contingency plans for identified project risks, and (4) completion of
Sentinel PMO staffing.

      In sum, the project is still in its early stages and has not yet
reached the most difficult phases. However, we believe that the
processes the FBI has established to manage and control the Sentinel
project – if implemented and carefully followed as Sentinel develops –
can provide reasonable assurance that Sentinel can be successful and
that any deviations from cost, schedule, technical, or performance
baselines can be identified.

Sentinel Contract

      The FBI awarded to Lockheed Martin a cost-plus-award-fee
contract through a National Institutes of Health government-wide
acquisition contract (GWAC).4 Actual work under the contract will
occur project phase by project phase through task orders.5 The cost

       4
        The development contract under the GWAC is cost-plus-award-fee.
However, all materials are cost-plus-fixed-fee and travel is cost reimbursable only.
       5
         A task order specifies the services required and the negotiated terms at
which they will be provided, subject to the terms of the contract.


                                        - iv -
of the task order for Phase 1 of Sentinel is $57 million. According to
the contract, the FBI may exercise options for $248 million to cover
three additional phases of the project plus operations and
maintenance. Therefore, the total contract with Lockheed Martin could
total $305 million. According to the contract, Lockheed Martin can
also be rewarded for meeting established goals in four areas: project
management, cost management, schedule, and technical performance.
The award fee cannot exceed xx percent of the $232.4 million total
development costs for Sentinel, or approximately $26 million, and will
be allocated across the four areas based on risk. This type of contract
and award fee structure is common for large government IT projects.

       In our 2005 report on the FBI’s Trilogy project, we described our
concerns with the cost-plus-award-fee contract as it was implemented
by the FBI in that project. The cost-plus-award-fee contract used for
Trilogy did not: (1) require specific completion milestones, (2) include
critical decision review points, and (3) provide for penalties if the
milestones were not met. With regard to the Sentinel contract, the
FBI is establishing clear milestones and requiring critical decision
review points. If the contractor does not meet its milestones, it will be
penalized by loss of the award fee.

Progress in Addressing the OIG’s Past Concerns

       The FBI has made good progress in addressing the concerns we
identified in our March 2006 audit report. As we describe in the
following sections, our audit found that although some concerns
remain, the FBI has: (1) hired or selected staff to meet current
vacancies for the Sentinel PMO and has had management stability,
(2) required that Sentinel meet a new joint Department of Justice and
Department of Homeland Security information sharing standard, which
will allow Sentinel to communicate with other systems built to the
standard, (3) established an EVM system to monitor the Sentinel
project’s costs and schedule, (4) established layers of review,
approval, and reporting for Sentinel spending, and (5) completed plans
for the IV&V of Sentinel’s software to ensure it will perform as
intended.

Staffing

       The FBI has made progress in staffing the Sentinel PMO since
our first report. Of a total planned staff of 73, as of October 2006, 65




                                  -v-
positions had been filled compared to 51 in March 2006.6 The FBI said
it has intentionally delayed filling six of the vacant positions until the
second phase of Sentinel. Two other positions remain vacant, an
intelligence analyst and a planner. The Chief of the Business
Management Unit said the PMO has taken steps to expedite hiring,
including interviewing applicants who had applied to an FBI-wide job
announcement for computer scientists.

Information Sharing

       In our March 2006 report, we expressed concerns that the FBI
was focused on sharing information within the FBI but had not paid
sufficient attention to Sentinel’s ability to share information with other
law enforcement and intelligence agencies’ systems. Since that
report, the FBI has focused more attention on external information
sharing needs and has been coordinating with the Departments of
Justice and Homeland Security and other federal entities, including the
Drug Enforcement Administration, Immigration and Customs
Enforcement, and the Office of the Director of National Intelligence.
Sentinel will be built to meet the standards of the new National
Information Exchange Model, a joint Department of Justice and
Department of Homeland Security standard, which is also supported
by the Director of National Intelligence. When finalized, the standard
will become the government-wide standard for any new law
enforcement and intelligence systems being developed.7 However, the
standard is still evolving, and Sentinel’s design may have to be
modified as the standard evolves.

Earned Value Management

      EVM is a tool that measures the performance of a project by
comparing the variance between established cost, schedule, and
performance baselines with what is actually taking place. These
variances are measured periodically to give project managers a
perspective on the status of a project and an early warning if a project



       6
          The number of filled positions includes three candidates who had accepted
positions and were in the process of being hired.
       7
          The Sentinel statement of work, which was developed prior to the release
of the draft National Information Exchange Model, requires Sentinel to be built to the
Global Justice XML Model. However, the Sentinel Program Manager said that
Sentinel’s design will ultimately conform to the new National Information Exchange
Model standards.


                                        - vi -
is heading for trouble. EVM reporting is an important risk-
management tool for a major IT development project.

      The FBI and Lockheed Martin have implemented EVM systems in
accord with Office of Management and Budget (OMB) requirements to
track and validate Sentinel project costs throughout the life of the
project. In addition to data provided by Lockheed Martin, the FBI’s
EVM system relies on cost data provided through invoices from support
services contractors and the FBI’s Budget Execution and Analysis
Reporting System, which extracts purchase order information from the
FBI’s Financial Management System and generates reports on funds
requested, amounts approved and spent, and obligations that have not
yet entered the FBI’s overall Financial Management System. The FBI
is required to report to the OMB any net cost or schedule variations by
the FBI and the contractor that meet a reporting threshold.

      The FBI is using the EVM system to help manage project risks by
providing an early warning of unexpected costs and problems that
could delay Sentinel’s completion. We are monitoring the FBI’s EVM
reporting to identify any unexplained growth in overall project costs or
any schedule delays. Three early EVM reports indicated some
variances, but the variances were due to estimating errors by the
contractor, which have been corrected.

Cost Tracking and Controls

       The OIG’s prior reviews of the Trilogy project found that the FBI
lacked an effective, reliable system to track and validate the Trilogy
project’s costs. In our current audit work, we found that in addition to
EVM reporting, the FBI has established controls to help ensure that
Sentinel expenditures are authorized in advance and that items are
verified when delivered and validated when invoiced. For example, the
FBI has developed a system of overlapping responsibilities for the
oversight of Sentinel’s costs that include: accounting, auditing, and
budget monitoring by the FBI’s Finance Division; detailed tracking of
Sentinel’s costs by the Office of the Chief Information Officer’s IT
Financial Management Unit; and tracking and controlling program and
development costs and developing policies and procedures for
processing invoices, requisitioning and procuring equipment, reviewing
contractor time charges, and resolving discrepancies by the Sentinel
PMO Business Management Unit. We believe that the tracking systems
and controls the FBI has implemented will allow the FBI to be better
monitor and control project costs for Sentinel than was the case under
Trilogy.


                                 - vii -
Documentation Required by ITIM Processes

      Although the FBI had established sound IT investment
management processes through its Life Cycle Management Directive
(LCMD), we noted in our last report on Sentinel that two key plans had
not yet been developed because the project design had not been
completed: IV&V and the system security plan. The IV&V process
provides an independent control to monitor the testing of the system
software and ensure it functions as intended. The FBI’s Chief
Information Officer (CIO) recently told us that the FBI awarded its
IV&V contracts to eight vendors and that it had awarded a task order
to Booz Allen Hamilton to monitor Lockheed Martin’s testing of the
system software during the development of the Sentinel system.8

      A system security plan is also critical to help ensure that Sentinel
will meet the FBI’s security standards and can be certified and
accredited for use within the FBI’s operating environment. The CIO
recently told us that the security plan has been drafted and is in the
approval process.

       In accordance with the FBI’s LCMD, the final design for the first
phase of the Sentinel project will occur in October 2006. However,
because Lockheed Martin will be using off-the-shelf components to
develop Sentinel, the complication and risk of the project design
should be lessened, although configuring all of the components into
one seamless system will remain a greater challenge. The FBI stated
that it will conduct future planning, including requirements verification,
prior to the initiation of subsequent phases in order to solidify the
design and deliverables for each phase

Current Concerns

       The FBI has made strides in resolving most of the concerns
discussed in our March 2006 audit report, although some aspects of
those concerns remain. Also, in our current audit work we have
identified additional concerns that warrant continued monitoring by
both the FBI and the OIG. One concern carries over from our previous
report – the possibility of a reprogramming of the FBI’s non-IT funds
to cover fiscal year 2007 Sentinel expenses, which may have an
adverse affect on the FBI’s mission capabilities. In addition, we were


       8
         At the time our audit, the specific IV&V activities for Sentinel had not been
determined. However, IV&V may include oversight of program management
processes and assessments related to the development contractor’s performance.


                                        - viii -
unable to validate the FBI’s cost estimate for Sentinel, and we found
that the FBI lacks contingency plans for all of the highly rated project
risks it has identified.

Project Funding and Reprogramming

       We found that the FBI faces uncertainty over the source of the
approximately $150 million the FBI says it needs in fiscal year (FY)
2007 to continue the Sentinel project. The President’s FY 2007 budget
request includes $100 million for Sentinel, and the FBI would need an
additional $56.7 million to bridge the gap between the requested funds
and its FY 2007 requirements for Sentinel. The FBI expects to have
about $50 million remaining from the first phase of Sentinel and prior
year unexpended balances from other sources. Moreover, the FBI’s
CIO recently told us that an FY 2007 appropriation of less than $100
million would be cause for concern and could result in an unanticipated
level of reprogramming of FBI resources to fund the Sentinel project.
In our judgment, any reprogramming significantly above $50 million
will require the FBI to carefully consider which programs and activities
will be affected and how to monitor the overall impact on the FBI’s
mission.

      As we reported in our first Sentinel audit, various FBI managers
told us that a second reprogramming of FBI funds similar in size to the
$97 million reprogramming that occurred in November 2005 could
erode the FBI’s mission capability in counterterrorism, cybercrime, and
other important operational areas. Therefore, until the funding issues
are addressed, we remain concerned about the impact that
reprogramming significant amounts of non-IT funds to support
Sentinel would have on other critical FBI priorities.

       With respect to total project costs, the FBI CIO told us that he
stands by the FBI’s estimate that the full cost of Sentinel will be $425
million, with $305 million to cover work by Lockheed Martin on a
variety of task orders and an additional $120 million to cover costs
such as staffing the FBI’s Program Management Office, contractor
support, and management or risk reserve for contingencies. Training
costs are included in the Lockheed Martin portion of the estimate,
which was a concern we noted in our last Sentinel report when the FBI
had not yet developed a complete cost estimate for its training plans.




                                  - ix -
Cost Estimates

      We reviewed the processes used to derive the $425 million cost
estimate for the Sentinel project, noted some inconsistencies in the
process and the results, and concluded that the estimate is a rough
approximation of Sentinel’s overall costs. The estimate is, in our view,
tentative given the variances in the supporting cost estimates and the
inherent complexity of estimating costs for a major IT system before
the design is finalized.

      In examining the underlying estimates for the overall project
cost, we are unclear as to whether the initial cost estimate accurately
included the project’s operations and maintenance costs through
FY 2011. We found that some portions of the estimate provide costs
for 2 years, while other portions include costs for 3 years. Another
estimate showed significant disparities in Lockheed Martin’s labor
costs. Variations in the estimates of Sentinel’s projected costs
demonstrate the difficulty of estimating the cost of such a complex
information technology project at its outset.

        Because of these estimation difficulties, and because the project
is in its early stages, we could not validate the FBI’s overall estimate
of $425 million for Sentinel, and we believe that the ultimate cost
could be lower or higher. We noted that the overall management
reserve for the project – a budgeted amount to cover any
unanticipated expenses – currently amounts to about 15 percent of
Sentinel’s development costs. The Sentinel Program Manager told us
that based on his experience, an 11 percent reserve would be
adequate (the difference amounts to about $8.6 million). The FBI
expects to adjust the amount of the reserve so that over the length of
the project the reserve will equal 11 percent of the development cost.
As the FBI finalizes Sentinel’s design and gains experience with actual
project costs, the FBI should regularly update its estimate of the
overall project costs to keep Congress and the Department informed.
In addition, we intend to continue to monitor the cost of the project as
it progresses.

      In addition to the Sentinel project cost estimates, we identified
costs that could be considered as associated with Sentinel but are
separate projects and therefore not included as part of Sentinel’s
projected $425 million cost. For example, the implementation of
Sentinel will require changes to the FBI’s National Name Check
system. In response to a request from a federal, state, or local
agency, the National Name Check Program queries FBI records to


                                  -x-
determine whether the person named in the request has been the
subject of an FBI investigation or mentioned in an FBI investigation.
The data system used by the program relies very heavily on the ACS
system, which Sentinel is intended to replace. The estimated cost of
updating the existing name check system to work with Sentinel is over
xxxxxxxx. In addition, the FBI has ongoing agency-wide security
efforts that will benefit Sentinel. If these separate projects were
included as Sentinel costs, the $425 million cost estimate could be at
least $25 million higher.

       The FBI’s position is that these separate projects are enterprise-
wide endeavors that will benefit the FBI’s overall IT structure,
including Sentinel but also many other FBI systems. The CIO and the
Sentinel Program Manager contend that these other projects were
initiated on their own merits, would be undertaken regardless of
Sentinel, and their costs ought not be considered as Sentinel costs.
While we agree that these Sentinel-related projects may not be direct
Sentinel costs, in our view the scope of the Sentinel project would be
larger if it was not supported by these other investments.

Risk Management

      The purpose of risk management is to assist the project
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a
program. A risk management plan identifies procedures used to
manage risk throughout the life of the program. Risks are categorized
by severity and identified as either open or resolved. Open risks are
tracked until resolved.

       The FBI has created a list of 20 risks associated with the Sentinel
project that it is monitoring. While the FBI’s establishment of a risk
management program is a positive step, contingency plans, and the
triggers for activating such plans, currently exist for only three risks –
including only one of the top five risks. The Program Manager told us
that in some cases it is difficult to develop a contingency plan before
the FBI’s preventive actions mitigate the likelihood or severity of the
risk or before the risk. He explained that the focus is on preventing
problems that would rise to the level of requiring mitigation, and that if
a problem occurs, a corrective action will be developed. He also told
us that many risks are temporary and as a project phase progresses,
the risk may become moot and is closed. However, we believe the FBI
should have a plan for risks that have the potential to result in a



                                  - xi -
significant cost, schedule, or performance deviation from the project
baselines.

       With respect to currently identified project risks, we view the
FBI’s ability to successfully migrate data from the antiquated ACS
system to Sentinel as a potentially significant challenge. If the
migration were to fail or be seriously delayed, the FBI would need to
try maintaining its legacy ACS system with all of its flaws. An inability
to migrate the ACS data would also result in a Sentinel system that
builds its data from the present day forward, without the benefit of
years of investigative data compiled in the old system. Further, should
ACS cease to be maintainable, that data could effectively be lost. The
Sentinel Program Manager told us that the task of “cleaning” and
reconciling the ACS data for migration into Sentinel is not technically
difficult and the FBI plans to use an available software tool for that
purpose. However, he pointed out that it will take a significant
amount of work to accomplish. He also said that as a preventative
measure intended to eliminate any delays in the overall project due to
data cleansing, the FBI plans to cleanse data in the phase preceding
the phase in which the data will be transferred to Sentinel.

      Another potential risk is the extent to which Sentinel will actually
use commercial-off-the-shelf software modules as intended. A high
degree of customization of the software could result in increased costs
and schedule delays. The Program Manager told us that the
components for Sentinel are all off-the-shelf and little or no
customization is anticipated. However, the key task will be configuring
Sentinel’s various applications – such as the workflow, document
management, searching and reporting, and electronic signatures – to
all work together. The Program Manager noted that Lockheed Martin
has successfully configured similar systems in other major projects,
using some of the same software modules, including one at the Social
Security Administration.

IT Investment Management Processes

      In November 2004, the FBI established its IT investment
management processes through its LCMD, which it has since refined
and is applying to the Sentinel project. The LCMD governs all aspects
of an IT project, including planning, acquisition, development, testing,
and operations and maintenance. The FBI’s LCMD contains four
overlapping components: life cycle phases, control gates, project level
reviews, and key support processes.



                                  - xii -
      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects:
(1) concept exploration, (2) requirements development, (3) acquisition
planning, (4) source selection, (5) design, (6) development and
testing, (7) implementation and integration, (8) operations and
maintenance, and (9) retirement.9 As of August 2006, the Sentinel
project had passed through the first four life cycle phases and is
currently in the fifth phase – Design.

      During the life cycle phases, specific requirements must be met
for the project to obtain the necessary FBI management approvals to
proceed to the next life cycle phase. The approvals occur through
control gates, where FBI management boards meet to discuss and
approve or disapprove a project’s progression to future phases of
development or implementation. The control gate reviews provide
management control and direction, decision-making, coordination,
confirmation of successful performance of activities, and determination
of a system’s readiness to proceed to the next life cycle phase.
Decisions made at each control gate review dictate the next step for
the IT program or project and may include: allowing an IT program or
project to proceed to the next segment or phase, directing rework
before proceeding to the next segment or phase, or terminating the IT
program or project.

       The Sentinel project has received management approval for the
first two of the LCMD control gates: the system concept on July 15,
2005, and the acquisition plan on July 29, 2005. As of September
2006, the Sentinel program had not requested or received approval for
the third control gate. According to the Sentinel Program Manager,
Phase 1 of the Sentinel project is scheduled to pass through Control
Gate 3, the Final Design Review, in late October 2006. Depending
upon the development model employed, programs or projects may
pass through the control gates more than once. Because Sentinel is
being developed in phases, and the contractor must provide a system
design for each phase, the project will pass through Control Gate 3
four times.




       9
        The life cycle phases are not to be confused with the Sentinel project’s four
development phases.


                                       - xiii -
Conclusions

       By establishing stronger IT investment management processes
and an array of monitoring and control mechanisms, the FBI has
positioned itself to better manage the Sentinel project and avoid the
problems that occurred in the Trilogy and VCF projects. However, FBI
officials agree this does not mean that the development of Sentinel is
risk-free. While the FBI has corrected or alleviated most of the
concerns we raised in our March 2006 audit report on Sentinel, several
areas warrant attention to avoid potentially serious problems as the
project progresses:

      •   the ability to fully fund the project and, if required, reprogram
          funds without adversely affecting other FBI mission-critical
          operations,

      •   monitoring and adjusting as necessary the estimates of total
          project costs,

      •   developing contingency plans for high-risk areas that could
          affect project costs, schedule, or performance, and

      •   completely staffing the PMO.

      In future audits, we will continue to monitor Sentinel’s progress
and whether the project is meeting the cost, schedule, technical, and
performance baselines.

OIG Recommendations

      In this second Sentinel audit, we make five recommendations to
the FBI to help ensure the success of the Sentinel case management
system and manage project costs. The recommendations are:

      •   Ensure the management reserve is based on an assessment
          of project risks for each phase and for the project overall.

      •   Periodically update the estimate of total project costs as
          actual cost data is available.

      •   Complete contingency plans as required by the Sentinel Risk
          Management Plan.




                                  - xiv -
•   Ensure that the independent verification and validation
    process is conducted through project completion.

•   Complete hiring as soon as possible for the vacant PMO
    positions needed during the current project phase.




                            - xv -
                              TABLE OF CONTENTS


INTRODUCTION .......................................................................... 1
     Background ....................................................................... 1
     Sentinel............................................................................. 4
     Sentinel’s Phased Approach.................................................. 6
     Earned Value Management System........................................ 8
     Prior Reports .................................................................... 10

FINDINGS AND RECOMMENDATIONS ........................................... 14
     Foundation of the Sentinel Project ....................................... 14
     Sentinel Contract .............................................................. 14
     Estimating Sentinel’s Cost .................................................. 15
     Funding Sentinel............................................................... 26
     Cost Tracking and Control .................................................. 28
     Earned Value Management ................................................ 30
     Risk Management ............................................................. 34
     Staffing of the Program Management Office .......................... 39
     Improved Management Processes and Controls ..................... 42
     Change Management Process ............................................. 48
     Information Sharing .......................................................... 50
     Lockheed Martin’s Observations on Sentinel ......................... 53
     Conclusion ....................................................................... 55
     Recommendations ............................................................ 57

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 58

STATEMENT ON INTERNAL CONTROLS ......................................... 59

APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 60

APPENDIX 2: ACRONYMS .......................................................... 61

APPENDIX 3: PRIOR REPORTS ON THE FBI’S INFORMATION
            TECHNOLOGY....................................................... 63

APPENDIX 4: COST ESTIMATING METHODOLOGIES USED IN
            THE INDEPENDENT GOVERNMENT
            COST ESTIMATE ................................................... 71

APPENDIX 5: RISK REGISTER .................................................... 72
APPENDIX 6: THE FBI’S LIFE CYCLE MANAGEMENT DIRECTIVE....... 82

APPENDIX 7: PMO STAFF POSITIONS AND RESPONSIBILITIES........ 88

APPENDIX 8: THE FEDERAL BUREAU OF INVESTIGATION’S
            RESPONSE TO THE DRAFT REPORT ......................... 90

APPENDIX 9: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
            AND SUMMARY OF ACTIONS NECESSARY TO
            CLOSE THE REPORT.............................................. 93
                              INTRODUCTION

Background

       On March 16, 2006, the Federal Bureau of Investigation (FBI)
announced that it had awarded a contract to Lockheed Martin Services,
Incorporated (Lockheed Martin) to develop the Sentinel information
and investigative case management system in 4 phases. The cost of
the four phases of the Lockheed Martin contract was
$305 million, and the FBI estimated that it would cost an additional
$120 million to staff the FBI’s Sentinel Program Office, provide
contractor support, and establish a management reserve for
contingencies, with the total estimated cost of Sentinel at $425 million.
The initial schedule for the Lockheed Martin contract calls for all
phases to be completed in December 2009, or 45 months from the
start of work.

      According to the contract, Lockheed Martin can be rewarded for
meeting established goals in four areas: project management, cost
management, schedule, and technical performance. The award fee
cannot exceed xx percent of the $232.4 million total development
costs for Sentinel, or approximately $26 million, and will be allocated
across the four areas based on risk. This type of contract and award
fee structure is common for large government IT projects.

       The Sentinel project, which uses commercial-off-the-shelf
(COTS) components, is intended to provide the FBI with a web-
enabled electronic case management system that includes records
management, workflow management, evidence management, search
and reporting capabilities, and information sharing capability with
other law enforcement agencies and the intelligence community.
According to the FBI Director, “Sentinel will strengthen the FBI’s
capabilities by replacing its primarily paper-based reporting system
with an electronic system designed for information sharing. Sentinel
will support our current priorities, including our number one priority:
preventing terrorist attacks.”10

      The Sentinel project follows the FBI’s unsuccessful efforts to
develop an automated case management system called the Virtual

      10
         FBI Press Release entitled FBI Announces Award of Sentinel Contract,
March 16, 2006.

                                      -1-
Case File (VCF), which was intended to replace the FBI’s obsolete
Automated Case Support (ACS) system. Because of the FBI’s failed
$170 million VCF project, congressional appropriations and oversight
committees questioned whether the FBI could successfully develop and
implement a case management system of Sentinel’s magnitude. Given
the importance of the Sentinel project, the congressional
appropriations committees and the FBI Director asked the Department
of Justice Office of the Inspector General (OIG) to continually review
and report on the progress of the FBI’s development of Sentinel.

      This report is the second OIG report on Sentinel, and covers the
progress the FBI has made in resolving the concerns identified in our
March 2006 report on the planning for Sentinel, whether the FBI’s
Information Technology Investment Management (ITIM) processes and
project management are likely to contribute to the successful
implementation of Sentinel, and the contract with Lockheed Martin to
develop Sentinel. Over the past few years, the OIG and others have
reviewed various aspects of the FBI’s information technology (IT)
infrastructure and cited a critical need for the FBI to modernize its
case management system. In previous reports, the OIG concluded
that current FBI systems do not permit agents, analysts, and
managers to readily access and share case-related information
throughout the FBI, and without this capability, the FBI cannot
perform its critical missions as efficiently and effectively as it should.

       In its mission-needs statement for Sentinel, the FBI stated that
its current case management system must be upgraded to utilize new
information technologies by moving from a primarily paper-based case
management process to an electronic records system. The FBI noted
that this transition would enable agents and analysts to more
effectively perform their investigative and intelligence duties.

      The FBI’s attempt to move from a paper-based to an electronic
case management system began with the Trilogy project in mid-2001.
The objectives of Trilogy were to update the FBI’s aging and limited IT
infrastructure; provide needed IT applications for FBI agents, analysts,
and others to efficiently and effectively do their jobs; and lay the
foundation for future IT improvements. Trilogy consisted of upgrading
the FBI’s: (1) hardware and software; (2) communications network;
and (3) the five most important investigative applications, including
the antiquated ACS. The first two components of Trilogy were
completed in April 2004 at a cost of $337 million, almost $100 million
more than originally planned. Among other improvements, the FBI

                                  -2-
enhanced its IT infrastructure with new desktop computers for its
employees and deployed a wide area network to enhance electronic
communication among FBI offices and with other law enforcement
organizations. However, despite additional funding the FBI received to
accelerate completion of Trilogy, these first two phases were not
completed any faster than originally planned.

       In early 2004, after nearly 3 years of development, the FBI
engaged several external organizations and contractors to evaluate the
VCF, the third prong of the Trilogy project. Based on critical
comments by these organizations, the FBI began to consider
alternative approaches to developing the VCF, including terminating
the project or developing a completely new case management system.
In late 2004, the FBI commissioned Aerospace Corporation to perform
a trade study evaluating the functionality of COTS and government off-
the-shelf (GOTS) technology to meet the FBI’s case management
needs. Aerospace followed this study with an Independent Verification
and Validation (IV&V) report on VCF, issued in January 2005, which
recommended that the FBI pursue a COTS-based, service-oriented
architecture.11 The IV&V report concluded that a lack of effective
engineering discipline led to inadequate specification, design, and
development of the VCF.

       In late 2004, the FBI modified its approach to developing the
VCF by dividing the project into Initial Operational Capability (IOC) and
Full Operational Capability segments. The IOC segment assessed the
VCF project and involved a pilot test of the most advanced version of
VCF in an FBI field office. The Project Management Executive for the
FBI’s Office of Information Technology Program Management stated
that the results of the pilot validated that ending the VCF project was
the right decision.

      The FBI issued a final report on the IOC at the end of April
      12
2005.   According to the report, the FBI terminated work on the VCF

       11
          IV&V is a standard ITIM process whereby an independent entity assesses
the system as it is developed in order to evaluate if the software will perform as
intended. A service-oriented architecture is a collection of services that
communicate with each other. The communication can involve a simple data
exchange or two or more services coordinating on an activity.
       12
           Department of Justice, Federal Bureau of Investigation. Federal Bureau of
Investigation: Virtual Case File Initial Operational Capability Final Report, version
1.0, April 29, 2005.

                                        -3-
due to the lack of progress on its development. The FBI stated that it
was concerned that the computer code being used to develop the VCF
lacked a modular structure, thereby making enhancements and
maintenance difficult. In addition, the FBI report said that the
“marketplace” had changed significantly since the VCF development
had begun, and appropriate COTS products, which were previously
unavailable, were now available.

       In his March 2005 testimony before the House Appropriations
Committee, the FBI Director said the FBI would apply lessons learned
from the VCF to develop and deploy Sentinel. The FBI has said that of
the $170 million VCF project, $104.5 million was lost but that $53.3
million in contractor services and equipment could be used and $12.2
million was unspent.13

Sentinel

      Similar to what the FBI had envisioned for the final version of
the VCF, Sentinel is intended to not only provide a new electronic case
management system, transitioning the FBI files from paper-based to
electronic records, but also to result in streamlined processes for
agents to maintain investigative lead and case data.14 In essence, the
FBI expects Sentinel to be an integrated system supporting the
processing, storage, and management of information to allow the FBI
to more effectively perform its investigative and intelligence
operations.

       According to the FBI, the use of Sentinel in the future will
depend on the system’s ability to be easily adapted to evolving
investigative and intelligence business requirements over time.
Therefore, the FBI intends to develop Sentinel using a flexible software
architecture that allows economical and efficient changes to software
components as needed in the future. According to the FBI, a key
element of the Sentinel architecture contributing to achieving this
flexibility will be the use of COTS and GOTS applications software. The
FBI intends to integrate the off-the-shelf products with an Oracle



       13
        The OIG has not verified these figures, including the services and
equipment the FBI said could be reused.
       14
           A lead is a request from any FBI field office or headquarters for assistance
in the investigation of a case.

                                         -4-
database, thereby separating the applications code from the
underlying data being managed in order to simplify future upgrades.

      FBI agents are required to document investigative activity and
information obtained during an investigation. The case file is the
central system for holding these records and managing investigative
resources. As a result, the case file includes documentation from the
inception of a case to its conclusion. FBI agents and analysts currently
create paper files in performing their work, making the process of
adding a document to a case file a highly paper-intensive, manual
process. Files for major cases can contain over 100,000 documents,
leads, and evidence items.

       Currently, the documentation within case files is electronically
managed through the ACS system. The ACS system maintains
electronic copies of most documents in the case file, and provides
references to documents that exist in hardcopy only. Upon approval of
a paper document, an electronic copy of the completed document is
uploaded to the electronic case file of the ACS system. However, ACS
is a severely outdated system that is cumbersome to use effectively
and does not facilitate the searching and sharing of information. The
limited capabilities of the ACS mean that agents and analysts cannot
easily acquire and link information across the FBI.

      In contrast, the FBI expects Sentinel to greatly enhance the
usability of case files for agents and analysts, both in terms of adding
information to case files as well as searching for case information. FBI
supervisors, reviewers, and others involved in the approval process
also will be able to review, comment, and approve the insertion of
documents into appropriate FBI electronic files through Sentinel.

      In addition to enhancing the investigative capabilities within the
FBI, Sentinel is intended to serve as the pilot project in the
development of the Federal Investigative Case Management System
(FICMS) framework as part of the federal government’s e-government
case management line of business. The FBI was named the lead
agency for the FICMS initiative, which, according to a June 2005
memorandum of understanding (MOU) signed by the FBI, DOJ, and
the Department of Homeland Security (DHS) Chief Information Officers
(CIO), is intended to produce an architectural framework designed to:
(1) bring federal law enforcement and investigative resources into a
common electronic environment that promotes collaboration and
optimum deployment of federal resources; and (2) create investigative

                                  -5-
case management solutions that provide state-of-the-art capabilities to
collect, share, and analyze information from internal and external
sources and initiate appropriate enforcement responses. According to
a Senior Policy Advisor to the Department’s CIO, other federal
agencies can use Sentinel’s core solution for their case management
systems because of its standard set of case management tools and
adaptability. Additionally, according to the FBI CIO, the Office of
Management and Budget (OMB) has begun to encourage other
agencies to become involved with the development of Sentinel and its
interfaces in order to ensure future information sharing capability
among all agencies.

Sentinel’s Phased Approach

      The FBI expects to develop the Sentinel project in 4 phases,
each with an approximately 12- to 16-month timeframe and
overlapping by 1 to 2 months. For example, Phase 2 is anticipated to
begin approximately 2 months before the end of Phase 1. Each phase,
when deployed, will result in a stand-alone set of capabilities that can
be added to by subsequent phases to complete the Sentinel project.
The following chart shows the phases and general timeframes for
Sentinel, according to the FBI.




                                 -6-
                         Conceptual SENTINEL Schedule with
                                    Capabilities


                                           New Electronic Case File                                              Phase 4
                                              (ECF) Capability

                                           Automated Workflow                                      Jan ‘09                        Dec ‘09
                                           Document Management
                                           Searching and Reporting                                             New Investigative Case
                                           PKI & Role Based Access                                               Management (ICM)
               New Portal and              Digital Signatures                         Phase 3                        Capability
                Foundational               Records Management
                Components                 Interfaces to Legacy ECF                                             Collected Items Mgmt
                                           Start Data Migration (New      Apr ‘08                 Feb ‘09       Document Scanning
         • SENTINEL Portal with           and Open Cases)                              New Universal             Interfaces to Legacy ICM
         access to ACS                     UNI Data Cleansing                          Index (UNI)             Systems
         • Case “Workbox”                                                                Capability              Migration of ICM Data
          Components of                                                                                        (Closed Cases)
         Service-Oriented                                                            UNI Data Migration         Retirement of Legacy
                                     Feb ‘07                            May ‘08
         Architecture
                                                Phase 2                              Interfaces to Legacy      Systems
          ECF Data Cleansing                                                       UNI Systems
         (formatting)                                                                Enhanced Search
                                                                                    & Improved Indexing
                                                                                     ICM Data Cleansing

                  Phase 1           Apr ‘07
    Mar ‘06




     Mar ‘06                    Feb ‘07                                   Apr ‘08                     Jan ‘09                       Dec 2009




   Source: FBI

      Phase 1 will introduce the Sentinel portal, which will provide
access to data from the existing ACS system and eventually, through
incremental changes, support access to a newly created investigative
case management system. Phase 1 will also provide a case
management “workbox” that will present a summary of all cases the
user is involved with, rather than requiring the user to perform a
series of queries to find the cases as is currently necessary with ACS.
Additionally, the FBI will acquire software to identify persons, places,
or things within the case files for automated indexing to allow the files
to be searchable by these categories. The FBI will also select the
hardware and software that will form the foundation of Sentinel’s
future service oriented architecture. Finally, the FBI will prepare the
data in the Electronic Case File portion of ACS to be migrated to
Sentinel in Phase 2.

      Phase 2, the most ambitious and difficult of the phases, will
begin the transition to paperless case records and the implementation
of electronic records management. A workflow tool will support the
flow of electronic documents through the review and approval cycles.
A new security framework will be implemented to support access
controls and electronic signatures. Additionally, the FBI will begin


                                                                   -7-
migrating data from the Electronic Case File to Sentinel and preparing
data from the Universal Index to be migrated to Sentinel in Phase 3.

      Phase 3 will replace the Universal Index (UNI), which is used to
determine if any information about a person, place, or thing exists
within the FBI’s current case management system. The UNI is a
database of persons, places, and things that have relevance to an
investigative case. While the current UNI supports only a limited
number of attributes, Phase 3 will expand the number of attributes
within the information management system.15 Improving the
attributes will allow more precise and comprehensive searching within
Sentinel and increase the ability to “connect the dots.”

      Phase 4 will implement Sentinel’s new case management and
reporting capabilities, and will consolidate the various case
management components into one overall system. Shortly after the
end of this phase, the legacy systems will be shut down and the
remaining cases in the legacy Electronic Case File will be migrated to
the new case management system. In this phase, as in all the others,
changes to the Sentinel portal will be required to accommodate the
new features being introduced.

Earned Value Management System

      Earned Value Management (EVM) is a tool that measures the
performance of a project by comparing the variance between
established cost, schedule, and performance baselines and what is
actually taking place. These variances are measured periodically to
give project managers a timely perspective on the status of a project.
EVM then can provide an early warning that a project is heading for
trouble. EVM reporting is an important risk-management tool for a
major IT development project such as Sentinel.

       In August 2005, the OMB issued a memorandum requiring all
federal agency CIOs to manage and measure all major IT projects
using an EVM system. Additionally, all agencies were to develop
policies for full implementation of EVM on IT projects by December 31,
2005. In response to these requirements, the FBI developed a
Sentinel Program EVM Capability Implementation Plan in August 2005

       15
           An attribute defines a property of an object within a case file. Examples of
attributes are eye color, height, and nationality when describing an individual or
address, floor, and room number when describing a specific location.

                                        -8-
and subsequently acquired a tool to implement an EVM system for the
Sentinel project.

      The OMB EVM memorandum also required that Integrated
Baseline Reviews (IBRs) be performed for any projects that require
EVM in order to establish performance management baselines against
which a project’s performance can be measured.16 Properly executed,
IBRs are an essential element of a program manager’s risk-
management approach. IBRs are intended to provide both the
government’s and the contractor’s program managers with a mutual
understanding of the project’s performance measurement baseline and
agreement on a plan of action to resolve the identified risks.
According to OMB guidance on IBRs, the objective of an IBR is to
confirm compliance with the following business rules:

      •    the technical scope of work is complete and consistent with
           authorizing documents;

      •    key schedule milestones are identified;

      •    supporting schedules reflect a logical flow to accomplish the
           technical work scope;

      •    resources, including money, facilities, personnel, and skills,
           are adequate and available for the assigned tasks;

      •    tasks are planned and can be measured objectively, relative
           to technical progress;

      •    underlying performance measurement baseline rationales are
           reasonable; and

      •    managers have appropriately implemented required
           management processes.




      16
          The performance measurement baseline is a total, time-phased budget
plan against which program performance is measured.

                                      -9-
Prior Reports

      Over the past few years, the OIG and other oversight entities
have issued reports examining the FBI’s attempts to update its case
management system. In these reports the OIG, the Government
Accountability Office (GAO), the House of Representatives’ Surveys
and Investigations Staff, and others have made a variety of
recommendations focusing on the FBI’s management of the FBI’s
Trilogy project, particularly the VCF portion of the project, and the
continuing need to replace the outdated ACS system. More recently
the OIG has reported on Sentinel, the successor to the VCF project. A
discussion of key points from these reports follows. (A more
comprehensive description of the reports appears in Appendix 3.)

      In March 2006, the OIG released the first in a series of audit
reports that will monitor the FBI's development and implementation of
the Sentinel project.17 This report discussed the FBI’s pre-acquisition
planning for the Sentinel project, including the approach, design, cost,
funding sources, time frame, contracting vehicle, and oversight
structure. In reviewing the management processes and controls the
FBI has applied to the pre-acquisition phase of Sentinel, the OIG found
that the FBI has developed IT planning processes that, if implemented
as designed, can help the FBI successfully complete Sentinel.

      In particular, the OIG found that the FBI has made
improvements in its ability to plan and manage a major IT project by
establishing ITIM processes, developing a more mature Enterprise
Architecture, and establishing a Program Management Office (PMO)
dedicated to the Sentinel project.

       However, at that time the OIG identified several concerns about
the FBI’s management of the Sentinel project: (1) the incomplete
staffing of the Sentinel PMO, (2) the FBI’s ability to reprogram funds to
complete the second phase of the project without jeopardizing its
mission-critical operations, (3) Sentinel’s ability to share information
with external intelligence and law enforcement agencies and provide a
common framework for other agencies’ case management systems,
(4) the lack of an established EVM process, (5) the FBI’s ability to

       17
          Department of Justice, Office of the Inspector General. The Federal Bureau
of Investigation’s Pre-Acquisition Planning For and Controls Over the Sentinel Case
Management System, Audit Report Number 06-14, March 2006.



                                      - 10 -
track and control Sentinel’s costs, and (6) the lack of complete
documentation required by the FBI’s information technology
investment management processes.

       In May 2006, the GAO released a report critical of the FBI’s
controls over costs and assets of its Trilogy project.18 The GAO found
that the FBI’s review and approval process for Trilogy contractor
invoices did not provide an adequate basis for verifying that goods and
services billed were actually received and that the amounts billed were
appropriate, leaving FBI highly vulnerable to payments of unallowable
costs. These costs included first-class travel and other excessive
airfare costs, incorrect charges for overtime hours, and charges for
which the contractors could not document costs incurred. The GAO
found about $10 million in unsupported and questionable costs. The
GAO also found that the FBI failed to establish controls to maintain
accountability over equipment purchased for the Trilogy project.
According to the GAO, poor property management led to 1,200
missing pieces of equipment valued at $7.6 million.

      In February 2005, the OIG reported on the critical need to
replace the ACS, finding that without an effective case management
system the FBI remained significantly hampered due to the poor
functionality and lack of information-sharing capabilities of its current
IT systems.19 The OIG audit report concluded that the difficulties the
FBI experienced in replacing the ACS were attributable to: (1) poorly
defined and slowly evolving design requirements, (2) contracting
weaknesses, (3) IT investment management weaknesses, (4) lack of
an Enterprise Architecture, (5) lack of management continuity and
oversight, (6) unrealistic scheduling of tasks, (7) lack of adequate
project integration, and (8) inadequate resolution of issues raised in
reports on Trilogy. The report described concerns with the cost-plus-
award-fee contract as it was implemented by the FBI for Trilogy
because the contract did not: require specific completion milestones,
include critical decision review points, or provide for penalties if the
milestones were not met.

       18
          U.S. Government Accountability Office. Federal Bureau of Investigation:
Weak Controls over Trilogy Project Led to Payment of Questionable Contractor Costs
and Missing Assets, Report Number GAO-06-306, May 2006.
       19
          Department of Justice, Office of the Inspector General. The Federal
Bureau of Investigation’s Management of the Trilogy Information Technology
Management Project, Audit Report Number 05-07, February 2005.



                                      - 11 -
      In April 2005, the House Appropriation Committee’s Surveys and
Investigations staff similarly concluded in its report that:20

      •    VCF development suffered due to a lack of program
           management expertise, disciplined systems engineering
           practices, and contract management. The project also was
           harmed by a high turnover of CIOs and program managers.

      •    VCF development was negatively affected by the FBI’s lack of
           an empowered and centralized CIO office and sound business
           processes by which IT projects are managed.

      •    The FBI’s decision to terminate VCF was related to
           deficiencies in the VCF product delivered, failure of a pilot
           project to meet user needs, and the new direction the FBI
           planned to take for its case management system.

      •    The FBI’s IT program management business structure and
           processes at the time of the report were, for the most part, in
           place, although some of these processes needed to mature.

      In September 2004, the GAO reported that although
improvements were under way and more were planned, the FBI did
not have an integrated plan for modernizing its IT system.21 The GAO
reported that each of the FBI’s divisions and other organizational units
that manage IT projects performed integrated planning for its
respective IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help
optimize mission performance, and they did not consistently contain
the elements expected to be found in effective systems modernization
plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until it developed an integrated systems
and modernization plan and effective policies and procedures for
systems acquisition and investment management. Additionally, the


      20
          U.S. Congress, House of Representatives, House Surveys and
Investigations. A Report to the Committee on Appropriations, U.S. House of
Representatives, April 2005.
      21
         U.S. Government Accountability Office. Information Technology:
Foundational Steps Being Taken to Make Needed FBI Systems Modernization
Management Improvements, Report Number GAO 04-842, September 2004.



                                      - 12 -
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.




                                 - 13 -
           FINDINGS AND RECOMMENDATIONS

Foundation of the Sentinel Project

     In March 2006, using a Government-Wide Acquisition
     Contract (GWAC), the FBI awarded Lockheed Martin
     Services, Incorporated a $57 million task order for Phase 1
     of Sentinel, with options for $248 million more to complete
     three additional phases and provide the operations and
     maintenance of the system. In addition to a cost baseline,
     the project also has an overall schedule for which specific
     baselines are being established phase-by-phase. Over
     about 4 years, Lockheed Martin will be responsible for
     designing, developing, integrating, testing, deploying,
     operating, and maintaining Sentinel. In addition to the
     potential award of $305 million to Lockheed Martin, the
     FBI expects to spend $120 million for other contractor
     support and program management, for a total project cost
     of $425 million.

     Based on our review of Sentinel’s Statement of Work and
     other documents associated with the contract award, we
     concluded that the contracting arrangement and scope of
     work for Sentinel appear reasonable, particularly
     considering the FBI’s vastly improved ITIM processes and
     project management capabilities. We also found that the
     FBI has made good progress toward addressing most of
     the concerns identified in our March 2006 audit report,
     although continued action or monitoring is needed on
     some of the concerns. We have also identified additional
     concerns in this audit. Among our overall concerns are:
     (1) project funding, (2) the estimate of total project costs,
     (3) risk management, and (4) filling PMO vacancies.

Sentinel Contract

      The FBI is using a GWAC contracting vehicle, administered by
the National Institutes of Health (NIH), to develop Sentinel. Such a
contracting vehicle streamlines the acquisition process by allowing
multiple government agencies to purchase services under one
contract. Instead of awarding a specific contract to a vendor, the


                                 - 14 -
awarding agency issues a task order to the selected vendor. In the
case of Sentinel, the FBI administers the task order itself. In March
2006, the FBI announced that the four-phase Sentinel project would
cost an estimated $425 million, with $305 million awarded to Lockheed
Martin to develop the system by December 2009 and $120 million for
the FBI’s program management costs and other contractor support.

      The FBI subsequently awarded Lockheed Martin a $57 million
task order for Phase 1 of Sentinel, with options for $248 million more
for the three additional phases and the operations and maintenance
(O&M) of the system developed during the project. In addition to the
cost baseline, the project has an overall schedule for which specific
baselines are being established phase-by-phase. Over about 4 years,
Lockheed Martin will be responsible for designing, developing,
integrating, testing, deploying, operating, and maintaining Sentinel –
which will be primarily based on commercial-off-the-shelf software –
and will provide all the personnel, facilities, equipment, material, and
support necessary to implement Sentinel.

      Lockheed Martin is performing the work under a cost-plus-
award-fee arrangement, similar to the one used during the Trilogy
project.22 However, the FBI is providing much greater control and
oversight for Sentinel compared to the weak management evident in
the Trilogy project. The contract is structured to reward excellent
performance by Lockheed Martin. If Lockheed Martin meets the
schedule and cost targets set by the FBI, the FBI can grant Lockheed
Martin award fees of up to xx percent of the xxxxxxxxxx Sentinel
development costs, or up to nearly xxxxxxxxxx. Lockheed Martin’s
performance will also determine whether the FBI exercises options to
award additional phases of the project to Lockheed Martin. If the FBI
finds Lockheed Martin’s performance unacceptable at any stage of the
project, the FBI can order Lockheed Martin to stop work on the
project. If the contractor does not meet its milestones, it will be
penalized by loss of the award fee.

Estimating Sentinel’s Cost

      The FBI based its $425 million estimate for the total cost of the
Sentinel project on: (1) an independent government cost estimate
conducted on the FBI’s behalf by Mitretek Systems prior to soliciting

       22
         The development contract under the GWAC is cost-plus-award-fee.
However, all materials are cost-plus-fixed-fee and travel is cost reimbursable only.

                                       - 15 -
bids for Sentinel in April 2005, and (2) the FBI’s assessment of the
cost estimate contained in Lockheed Martin’s proposal.23 We reviewed
the processes used to derive the $425 million estimate, noted
inconsistencies in the process and the results, and concluded that the
estimate is a rough approximation of Sentinel’s overall costs. The
estimate is, in our view, tentative given the variances in the
supporting cost estimates and the inherent complexity of estimating
costs for a major IT system even before the design is finalized.
However, the FBI’s CIO said he stands by the estimate. Further, we
identified several Sentinel-related projects, the costs of which are not
included in the overall Sentinel estimate.

Independent Government Cost Estimate

       The independent government cost estimate concluded that
project costs would range between $329 million and $493 million, with
the most likely cost $438 million. According to the Chief of Sentinel’s
Business Management Unit, this estimate is the basis for the $120
million program management portion of the FBI’s total estimate of
$425 million.

       The independent government cost estimate established a series
of classifications to describe the work to be accomplished and the
products to be acquired in the development of Sentinel. Six different
techniques were used to estimate the cost of the various elements of
Sentinel: parametric modeling, cost estimating relationships, analogy,
engineering assessment, vendor quote, and historical data.
Appendix 4 provides detailed definitions of each of these cost
estimating methods. The cost-estimating method chosen for each
work element depended on the availability of technical and cost data.

       We reviewed the estimate and identified several concerns about
its ability to provide the FBI with a reliable estimate of Sentinel’s costs.
The estimate was performed concurrently with development of
Sentinel’s requirements. While Mitretek Systems, the FBI’s estimating
contractor, coordinated its efforts with personnel developing Sentinel’s
requirements, the estimate might not accurately reflect the project’s
final design specifications, which are not expected to be completed

       23
           Independent government cost estimates help federal agencies budget for
projects, compare contractor proposals, and evaluate the reasonableness of costs in
contractor proposals.



                                      - 16 -
until about October 2006. Also, the estimate contains several
inconsistencies. For example, some parts of the cost estimate show
Sentinel’s O&M phase lasting 3 years while other parts show it lasting
2 years, resulting in a likely O&M cost range of $62 million to
$87 million. If the additional inconsistencies are factored into the
summary cost of the O&M phase, the O&M estimate could be as low as
$53 million. Finally, the overall cost estimate does not include all of
the costs in the Sentinel funding plan. For example, the estimate does
not include the management, or risk, reserve or a separate
Independent Verification and Validation (IV&V) contract to
independently assess Lockheed Martin’s testing of Sentinel’s software,
which currently account for a total of $40 million of the PMO’s $120
million estimate.24

Government’s Estimated Most Probable Cost

      The FBI received proposals for the Sentinel project from xxxx
bidders. When the xxxx proposals were received, the FBI reviewed
them to determine whether the cost data within the proposals was
complete, based on clear and accepted methodologies, and accurate.
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxx25 Cost realism analysis results in the
Government Estimate of Most Probable Cost (GEMPC) for the project.
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxx.26 Based on the GEMPC, FBI officials concluded that
Lockheed Martin’s estimate was reasonable xxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

       24
          A management reserve, also known as a risk reserve, is a budgeted
contingency fund used to cover costs not anticipated at the time a project’s cost
estimate is developed.
       25
          The Federal Acquisition Regulation (FAR) requires that cost realism
analysis be performed on cost-reimbursement contracts to determine the probable
cost of performance for each bidder. Cost realism analysis is the process of
independently reviewing and evaluating specific elements of each proposed cost
estimate to determine whether the estimated cost elements are realistic for the work
performed, reflect a clear understanding of the requirements, and are consistent with
the unique methods of performance and materials described in the bidder’s technical
proposal.
       26
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                       - 17 -
xxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxsxs
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxs
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxsssssx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxs
x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxsx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxss
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxx xxxxssssss
xxxxxxxxx xxxxxxxxxx xxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                            - 18 -
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.27
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Despite these differences,
the FBI determined that Lockheed’s proposal was reasonable and did
not pose a significant risk. According to FBI officials, the FBI resolved
the issues identified in the GEMPC during its negotiations with
Lockheed Martin.

      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxx Due to the variability and inconsistencies of the estimates
we reviewed, and the difficulty of forecasting the eventual cost of a
major IT project, we could not confirm the accuracy of estimates, nor
could we validate the FBI’s overall estimate of $425 million for
Sentinel.


       27
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                       - 19 -
Sentinel-Related Costs

       We also identified several projects and other costs, which in total
exceed $25 million, that are related to Sentinel but are not considered
by the FBI as direct Sentinel costs and are therefore not included in
the FBI’s total estimate of $425 million. Examples of these related
costs include the National Name Check system, security costs, and FBI
salaries. However, as discussed previously, because of the difficulties
associated with accurately estimating the total cost of such a large
project, we cannot state with certainty whether Sentinel’s costs would
exceed $425 million, only that the costs would be higher if the costs of
the Sentinel-related projects were included.

      The implementation of Sentinel will require changes to the FBI’s
National Name Check system. In response to a request from a
federal, state, or local agency, the National Name Check Program
queries FBI records to determine whether the person named in the
request has been the subject of an FBI investigation or mentioned in
an FBI investigation. The data system used by the Name Check
program relies very heavily on the ACS system, which Sentinel is
intended to replace. The estimated cost of updating the existing name
check system to work with Sentinel is over xxxxxxxxxx.

      The FBI is also developing security through its Information
Access Technology Initiative (IATI) to support Sentinel and future FBI
systems. A portion of the IATI is intended to help the FBI move from
a manual security classification review of documents to a more
automated review. The IATI will be developed in concert with Sentinel
and should be able to integrate with Sentinel and the FBI’s overall IT
network as well. The purchase of any initial license for a security
product used in conjunction with the IATI would be funded by the
Office of the CIO (OCIO). This license will be used for testing and
evaluation. If approved, Sentinel would later purchase a license for its
own use of the product. While the software is critical to the security of
Sentinel, the cost of the initial license is not reflected in the FBI’s
Sentinel costs. The FBI is uncertain as to which of the products in
development would be used by Sentinel and therefore was unable to
estimate the specific costs related to Sentinel.

      The salary costs of FBI employees are also not tracked as a
Sentinel expense. These costs include FBI employees assigned to the
Sentinel PMO, the employees who will be developed to train other
employees on Sentinel use, ITOD staff assigned to Sentinel,

                                  - 20 -
employees who will attend Sentinel training, and the Finance Division
auditors who review Sentinel invoices. While the Independent
Government Cost Estimate of $438 million does not include the cost of
FBI employees in the overall cost of Sentinel, other portions of the
report concluded that the cost of FBI employees’ involvement in the
development and implementation of Sentinel would be approximately
$15.8 million.

      The FBI’s position is that the separate projects discussed above
are independent, enterprise-wide projects that will benefit the FBI’s
overall IT structure, including Sentinel but also many other FBI
projects. The CIO and the Sentinel PMO contend that the costs of such
independent projects ought not be considered as Sentinel costs. While
we agree that these Sentinel-related projects may not be direct
Sentinel costs, in our view the scope of the Sentinel project would be
larger if it was not supported by these other investments. When
decision makers are considering the full cost of the Sentinel project,
they should keep in mind both the direct project costs as well as the
additional related costs.

Spending Plan and Management Reserve

       In the FBI’s spending plan for Sentinel, developed shortly after it
awarded the contract, the $425 million total project cost estimate
covers the four phases of Sentinel plus 2 years of O&M after the
completion of the system. Based on Lockheed Martin’s proposal, the
FBI plans to pay Lockheed Martin $305 million for the development of
Sentinel and its O&M expenses. The spending plan shows that the FBI
will use the remaining $120 million for program management, the
IV&V of the software, and management reserve. The FBI estimates
that Phase x, with a cost of xxxxxxxxxxx over x years, will be the most
expensive phase as well as the most challenging. The chart below
summarizes the FBI cost estimates by type of expense and project
phase.




                                  - 21 -
                   Sentinel Spending Plan by Phase




                         CHART REDACTED




 Source: The FBI

      According to a May 2006 Lockheed Martin plan, material and
equipment will be the largest cost of Lockheed Martin’s contract to
develop and deploy Sentinel. As shown in the following chart, labor to
develop the system and O&M of the system are the other two major
cost categories; together, they represent over 50 percent of the value
of Lockheed Martin’s contract.




                                - 22 -
                      Lockheed Martin Spending Plan
                            By Cost Category




                               CHART REDACTED




       Source: Lockheed Martin Services, Incorporated

       The Sentinel PMO is responsible for ensuring that the Sentinel
project is properly executed, including: (1) oversight of the program’s
cost, schedule and performance, (2) Life Cycle Management Directive
(LCMD) reviews; (3) award fee evaluations; (4) review and acceptance
of Lockheed Martin’s documents; (5) requirements and risk
management; and (6) budget and financial management.28 As shown
in the following chart, the FBI estimates that the majority of the PMO’s
expenses will be for the operation of the PMO itself. The primary
expense of the PMO is contractors, which accounts for about
74 percent of the PMO’s 73 planned positions. The PMO’s budget is
based on the requirement that all positions be filled throughout the
four phases of development. However, the Chief of the Business
Management Unit told us that there is no reason to fill six positions
until the project approaches Phase 2, which begins in early 2007 (PMO
staffing is discussed later in this report). Twenty-eight percent of the
PMO’s $120 million budget is for a management, or risk, reserve. (As
discussed in the EVM section of this report, Lockheed Martin also has a
management reserve for Phase 1.) The management reserve is an

       28
           The LCMD, which is a set of policies applicable to all FBI IT programs and
projects, contains a framework for standardized, repeatable, and sustainable
processes for developing IT systems. The LCMD covers the entire IT system life
cycle, including planning, acquisition, development, testing, and operations and
maintenance. See Appendix 6 for a detailed description of the LCMD.



                                        - 23 -
OMB-required contingency fund used to cover the costs not known at
the time a project’s cost estimate is developed. Depending on the
confidence level the agency has in a project’s cost estimate, the OMB
calls for management reserve of 10 to 30 percent.

              Project Management Office Spending Plan
                         By Cost Category




                          5%
            28%
                                                         Program Management
                                                         Risk Management
                                                         IV&V
                                           67%




       Source: OIG Analysis of FBI data

       According to the Sentinel Program Manager, Sentinel’s
management reserve should be 11 percent of the estimated $232.4
million development cost of the project, or about $25.6 million. The
PMO determined the percentage of the management reserve based on
a review of the known risks and the System Requirements
Specification.29 We found that the total Sentinel management reserve
of $34.1 million is about 15 percent of the development cost of the
project. As shown in the following chart, the FBI’s management
reserve varies by program phase from 11 percent of the development
cost for Phase 2 to 32 percent for Phase 4.




       29
          A System Requirements Specification defines a system’s technical
requirements in quantifiable and verifiable terms and the methods to be used to
ensure that each requirement has been met.



                                      - 24 -
                 Management Reserve as a Percentage of
                   Development Cost by Project Phase




                               CHART REDACTED




           Source: OIG Analysis of FBI data

       The Sentinel Program Manager said he did not advocate a
management reserve greater than 11 percent of development, and he
expects the Phase 1 management reserve to be reduced from 15
percent to 11 percent.30 The FBI’s Deputy Assistant Director of
Finance agreed that an 11 percent management reserve was sufficient
for Phase 1. However, he said the Finance Division had not
transferred the excess management reserve to another account
because there was no current operational need for the money. Both
the Chief of the Sentinel PMO’s Business Management Unit and the
Deputy Assistant Director of Finance said that the amount of the
management reserve for each phase was determined based on
preliminary estimates of Sentinel’s cost and had not been adjusted to
reflect the FBI’s contract with Lockheed Martin. The FBI’s current
spending plan for Sentinel overstates the total anticipated cost of the
project by $8.6 million, the difference between a management reserve
of 15 percent of development costs and the 11 percent. However, FBI
officials told us that over the course of the project, the management
reserve will be adjusted to 11 percent of Sentinel’s development cost.


      30
       The FBI’s Finance Division, not the Sentinel PMO, controls the
management reserve.



                                       - 25 -
Funding Sentinel

       Our March 2006 report stated that according to an FBI official
the OMB required the FBI to identify the funding for each phase of
Sentinel before work on that phase could begin. As a result, on
September 27, 2005, the FBI submitted a $97 million reprogramming
request to Congress for the first phase of Sentinel. Congress approved
the request on November 15, 2005. According to the PMO’s most
recent cost estimates, Phase 1 will cost $108.5 million and require
funds over four fiscal years (FY) starting in FY 2006. However, Phase
1 will only require $93.4 million in FY 2006 and 2007 funds, potentially
making $3.6 million of the $97 million in reprogrammed funds
available to help fund Phase 2.

       The President’s FY 2007 budget request includes $100 million for
Phase 2 of the Sentinel project. However, whether the FBI will receive
the full requested amount is uncertain because the FY 2007
appropriation has not been finalized by Congress. xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. If the FBI receives the full
$100 million requested in the FY 2007 budget, the FBI would need to
identify an additional xxxxxxxxxxxxxx to meet Sentinel’s FY 2007
funding requirements. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxx However, the FBI’s CIO recently told us that an FY 2007
appropriation of less than $100 million would be cause for concern and
could result in an unanticipated level of reprogramming of FBI
resources to fund the Sentinel project.

      The FBI plans to seek additional appropriations to fund the third
and fourth phases of Sentinel. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                 - 26 -
xxxxxxxxxxx The table below shows the spending plan for Sentinel by
fiscal year over the life of the project.

              Sentinel Spending Plan (Millions of Dollars)




                          CHART REDACTED




Source: FBI

       In our first report on Sentinel, we noted that more than
$14 million of the FBI’s $97 million November 2005 reprogramming
would come from the Counterterrorism Division budget, $13 million
from intelligence-related activities, and $2 million from the Cyber
Division. During our first audit, most FBI divisions and offices seemed
confident about their ability to absorb the initial reprogramming of
funds to Sentinel for Phase 1. However, the officials stated that a
second reprogramming of the same magnitude would damage their
ability to fulfill their mission.

       During this audit, we also interviewed officials at FBI
headquarters to assess the impact of the $97 million reprogramming
and any future reprogrammings for Sentinel. Generally, these officials
confirmed that their divisions and offices can withstand the diversion
of funds to Sentinel for the first reprogramming and that the
successful implementation of a modern case management system
would offset the operational impact of the reprogramming. These
officials also said they had not received notice of the need for or
amount of any future reprogrammings and therefore could not assess
its potential impact. In our judgment, any reprogramming significantly
above $50 million will require the FBI to carefully consider which
programs and activities will be affected and how to monitor the overall
impact on the FBI’s mission.


                                 - 27 -
Cost Tracking and Control

       For the Trilogy project, the FBI lacked an effective, reliable
system to track and validate the contractors’ costs. We highlighted
this concern in our February 2005 report on Trilogy and stated our
continuing concern in our March 2006 report on Sentinel. Also, in its
February 2006 report the GAO stated that the FBI’s poor cost controls
resulted in the payment of about $10 million in questionable contractor
costs, and poor property management led to missing equipment
valued at $7.6 million.

      The FBI has now established several layers of control to help
ensure that costs are authorized in advance, verified when delivered,
and validated when invoiced. The overlapping responsibilities for
oversight of Sentinel’s costs include: the FBI’s Finance Division –
which performs accounting, auditing, and budget monitoring; the
Office of the Chief Information Officer’s (OCIO) IT Financial
Management Unit – which tracks Sentinel’s costs in detail; and the
Sentinel PMO’s Program Integration Unit – which tracks program and
development costs and has developed policies and procedures for
processing invoices, requisitioning and procuring equipment, reviewing
contractor time charges, and resolving discrepancies. The Sentinel
PMO’s Business Management Unit has also implemented a “change
management process” to help prevent “requirements creep” that can
increase project costs or schedule delays. The tracking systems and
controls the FBI has implemented provide greater assurance that the
FBI will be better able to monitor and control project costs for Sentinel
than was the case under Trilogy.

Oversight and Control

       The Finance Division’s Audit Unit has dedicated two of its six
auditors to work part time on Sentinel. According to Finance Division
staff, auditors periodically review a sample of invoices for Sentinel
goods and services to verify that applicable procedures are being
followed. The Audit Unit produces a monthly audit report, which is
distributed to the Contracting Officer’s Technical Representative
(COTR), the Finance Division, and FBI management, including the
Deputy Director.

      The Finance Division tracks Sentinel spending through the FBI’s
Financial Management System (FMS). The FMS uses four categories –
development contract, O&M, program management, and risk

                                 - 28 -
management – to track Sentinel costs. In addition, the Chief Financial
Officer (CFO) has established a separate, dedicated cost code for
Sentinel that allows the Sentinel PMO, OCIO, and CFO teams to jointly
track and control Sentinel costs through the Budget Execution and
Analysis Reporting System (BEARS), a database used to track budget
information within the OCIO. BEARS tracks Sentinel equipment
purchases and other expenditures by project phase based on 20
specific spending plans. BEARS extracts purchase order information
from the FMS and generates reports on funds requested, amounts
approved, and obligations that have not yet entered the FMS. BEARS
data is used for the FBI’s EVM analyses, discussed below.

      Requisitions require the approval of the Sentinel PMO, Business
Management Unit Chief, the COTR, and the Office of IT Program
Management’s Program Management Executive. The PMO budget
analyst and the IT Financial Management Unit verify availability of
funds according to the spending plans. The Office of IT Policy and
Planning validates and approves the requisition requirements, and the
IT Financial Management Unit enters the requisition information into
BEARS.

        The IT Financial Management Unit only tracks funds that have
been entered into the Sentinel spending plans in BEARS. It loses
visibility over Sentinel funds any time funds are transferred from
Sentinel to another FBI program. For example, the Sentinel PMO had
to pay for its portion of the FBI’s wireless service that supports its
handheld e-mail devices. The IT Financial Management Unit
transferred funds from the Sentinel account to the appropriate
account. Once this transfer occurred, the Unit no longer had the
capability through BEARS to determine whether the money was
actually spent for the use intended. The IT Financial Management Unit
has not devised a practical alternative method to track Sentinel costs
not entered into the BEARS database managed by the unit.

Invoice Processing Overview

       We reviewed Sentinel’s requisitioning and invoice processing
procedures and found that they appeared reasonable. The contractor
submits invoices to the COTR for review. The COTR verifies the
invoices with the Sentinel Unit Chiefs, such as the chief of the System
Development Unit, to ensure that the billed work has been performed,
is within the scope of work, and is funded. The COTR returns any


                                 - 29 -
incorrect invoices to the vendor with comments detailing the
discrepancies or the additional information required.

      The Chief of Sentinel’s Business Management Unit records and
tracks invoices against purchase orders; analyzes actual expenditures
against planned spending by month; prepares regular reports for the
COTR, Unit Chiefs, and the Program Manager regarding the availability
of funds; notifies the COTR and Program Manager of any deviation
greater than 5 percent from planned expenditures; revises spending
plans at least quarterly; and coordinates invoices with EVM estimates.

      The Program Manager or Deputy Program Manager reviews final
invoices after the reviews by the COTR and unit chiefs, and is
responsible for approving invoices for payment. The Contracting
Officer then gives final approval and forwards the invoice to the FBI’s
Commercial Payments Unit for payment.

      Based on our review, the Sentinel’s policies and procedures for
processing invoices, requisitioning and procuring equipment, reviewing
contractor time card, and handling deviations in bills of materials
should help prevent the FBI from incurring and paying for
unauthorized services and materials.

Earned Value Management

      Our March 2006 report on Sentinel pointed out the need for the
FBI to establish an EVM process for Sentinel, which it has since done.
EVM helps manage project risks by achieving reliable cost estimates,
evaluating progress, and allowing the analysis of project cost and
schedule performance trends. EVM compares the current status of a
project, in terms of both cost and schedule, to the established cost and
schedule baselines. Deviations between the baselines and the current
status demonstrate the project’s progress and the overall level of
performance, thereby enabling a level of accountability to be imposed
on the project. When properly utilized, EVM allows project
management to pinpoint potential problems and address them before
they escalate. Based on our review of early EVM reporting from April
to August 2006, we identified no immediate concerns with Sentinel’s
cost or schedule in the first phase of the project, although Lockheed
Martin was still grappling with some estimating errors that may have a
future impact on the EVM results.



                                 - 30 -
       According to the FBI’s EVM plan, the Sentinel PMO will use the
plan to measure its and the contractor’s earned value performance and
report the result to oversight entities. The Sentinel project’s
Statement of Work requires vendors and contractors to fully
implement EVM in accordance with the plan, including having an EVM
system of its own that complies with American National Standards
Institute (ANSI)/Electronic Industries Association (EIA) Standard
748-A.31 This allows the FBI to gather EVM data on the development
portion of the project from Lockheed Martin through monthly electronic
data transfers from Lockheed Martin. The Sentinel PMO collects EVM
data for the PMO portion of the Sentinel from invoices from support
services contractors and BEARS, an FBI reporting system discussed
previously.

      The Statement of Work also included the requirement that the
vendor perform an Integrated Baseline Review (IBR), where the cost
and schedule baselines would be established for the project. Properly
executed, IBRs are an essential element of a Program Manager's risk-
management approach. IBRs are intended to provide both the
government’s and the contractor’s program managers with a mutual
understanding of the project’s performance measurement baseline and
agreement on a plan of action to resolve any identified risks.

       The Sentinel IBR started on schedule, but took somewhat longer
than scheduled to complete. According to the report documenting the
results of the IBR, the FBI and Lockheed Martin achieved the
objectives of the IBR, and the Project Management Baseline was set
for Phase 1. The IBR set the baseline budget at XXXXXXXXXX, not
including the xxxxxxxxxxxx (about x percent of the baseline budget)
management reserve established for Lockheed Martin at the IBR.
Including the management reserve, the baseline budget is $2.9 million
less than the $57.2 million contracted for Phase 1. Lockheed Martin’s
management reserve, which was established with the FBI’s
agreement, is intended to provide Lockheed Martin with the flexibility
to respond to any cost estimating errors it may have made and still
stay within the contracted amount. The Sentinel Statement of Work
also required that Lockheed Martin submit its EVM system to the

       31
            ANSI/EIA Standard 748-A is the criteria selected by the OMB for EVM
systems. The standard includes 32 specific criteria in five process areas necessary
for a sufficient EVM system: (1) organization; (2) planning, scheduling and
budgeting; (3) accounting; (4) analysis and management reports; and (5) revisions
and data maintenance.

                                      - 31 -
contracting officer for review. In June 2006, the PMO’s EVM analyst
reviewed Lockheed Martin’s EVM system and determined that the
system complies with ANSI/EIA Standard 748, and the FBI’s
contracting officer concurred.

      At the time of our audit, the FBI had begun using “Winsight”
software to maintain and report Sentinel’s EVM performance metrics.
Sentinel’s EVM analyst prepares three EVM reports each month: one
analyzing the whole program’s EVM data, one analyzing Lockheed
Martin’s EVM data, and one analyzing the PMO’s EVM data.

      We reviewed the EVM reports for April to August 2006. The
August 2006 EVM reports show that since the schedule and costs of
Lockheed Martin’s work were determined, the actual cost of work
performed by Lockheed Martin exceeded the planned cost. During
June, July, and August, the Lockheed Martin portion of the program
was xxx percent, xxx percent, and xxx percent over budget
respectively.

       According to the June report, Lockheed Martin made an
estimating error in the EVM baseline approved at the IBR. xxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxx However, according to the EVM report, Lockheed Martin
officials said another estimating error should offset the excess costs
accrued in June. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxx.

       However, if Lockheed Martin continues to accrue costs at the
rate it did in June, the EVM report projects that Lockheed Martin’s cost
for Phase 1 will be about xxxxxxxxxxxx, or approximately xxxxxxxxx
more than the baseline budget of $xxxxxxxxxxxx (excluding Lockheed
Martin’s xxxxxxxxxxxx management reserve). Still, the projected cost
is less than the $57.2 million contracted amount for Phase 1 of
Sentinel. The report concluded that Lockheed Martin’s EVM data is not
likely to show “a rapid and large improvement,” xxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxx


                                 - 32 -
      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx FBI officials
recently told us that Lockheed Martin has developed a plan showing
how the variance in xxxxxxxxxxxxxx will not have a negative impact
on the cost of Phase 1.

      The July 2006 EVM report also showed that the actual costs
incurred by the PMO were about $1.1 million less than planned at this
stage of the project. The EVM report attributes the spending variation
primarily to vacancies in the PMO. The report concluded that the
variance should not prevent the program from meeting its schedule or
performance goals and recommended that PMO management continue
to focus on filling the PMO’s vacancies (see discussion of PMO
vacancies later in this report). As a result of joint Lockheed Martin-FBI
decision to delay some purchases, Lockheed Martin did not receive
hardware and software on the dates envisioned by the baseline
schedule, causing the July EVM report on Lockheed Martin’s activities
to show it being behind schedule by 10.1 percent.

       The OMB requires agencies to report to it EVM variances greater
than 10 percent, including what corrective actions the agency will take
to remedy the variances. While the development of Sentinel depends
heavily on Lockheed Martin’s performance, the Lockheed Martin EVM
data is only part of the Sentinel EVM data. In July, the net schedule
variance for the Sentinel program as a whole – the basis for whether it
is required to report variances to the OMB – was 8.1 percent. Sentinel
is on the OMB government-wide list of high-risk IT projects, meaning
that Sentinel is a high-priority project, not that it is a troubled project.
FBI officials said that because Sentinel is on the high-risk list, the FBI
provides the OMB with monthly EVM data on the PMO’s performance
and Lockheed Martin’s performance, regardless of whether or not there
are any significant variances.

      In our judgment, reporting from June to August 2006 shows that
Sentinel’s EVM system is functioning as intended and providing FBI
managers with warnings of issues that may affect Sentinel’s cost or
schedule, including Lockheed Martin’s estimating errors and vacancies
in the PMO. We also believe it was prudent for the FBI to allow

                                  - 33 -
Lockheed Martin to establish a management reserve to compensate for
estimating errors. While we identified no significant immediate
concerns, we are concerned about the future implications of the cost
variances experienced by Lockheed Martin, especially the higher-than-
expected labor rates. We will continue to monitor Sentinel’s EVM
reporting to identify any concerns affecting the project baselines.

Risk Management

      The FBI has instituted a risk management process to identify and
mitigate the risks associated with the Sentinel project. The risk
process is managed by the Sentinel Project Manager and a Risk Review
Board, which meets biweekly. The most significant risks identified by
the board are examined at monthly Program Management Review
sessions and other Sentinel oversight meetings in accordance with the
FBI’s LCMD.32

       The purpose of risk management is to assist the program
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a
program. A risk management plan identifies the procedures used to
manage risk throughout the life of the program. In addition to
documenting the risk approach, the plan focuses on how the risk
process is to be implemented; the roles and responsibilities of the
program manager, program team, and development contractors for
managing risk; how risks are to be tracked throughout the program
life cycle; and how mitigation and contingency plans are implemented.

       Program risks include risks that are identified and managed by
the development contractor as well as risks that can only be identified
and managed by the FBI. This requires that risk management be
performed by the vendor and subcontractors to identify risks from the
contractor perspective, and by the FBI program management team to
identify risks from the FBI’s perspective. According the Sentinel
Program Manager, PMO personnel attend and participate in Lockheed
Martin’s risk management meetings. These weekly meetings are the


       32
           In addition to the risk management processes cited above, the following
receive briefings that include information about Sentinel risks: the FBI Director
(weekly); a review team with senior representatives from the Department of Justice,
OMB, and Director of National Intelligence (monthly); the FBI CIO’s Advisory Council
(bi-monthly); the FBI Director’s Advisory Board (as requested); and congressional
oversight committees (quarterly).

                                      - 34 -
primary reason that the Sentinel Risk Review Board continues to meet
biweekly rather than weekly, as planned in the pre-acquisition phase.

       According to the Sentinel Risk Management Plan, risks are to be
identified, assessed, and tracked throughout the life of the project.
When a proposed risk is brought before the Risk Review Board, the
board’s voting members decide whether or not to accept the risk as an
“open” risk and, if accepted, vote on the severity the risk will have on
the project’s cost, schedule, and performance and the probability the
risk will occur. Risks brought before the Risk Review Board are
documented in a risk register, which includes the following:

          •    description of the risk,
          •    impact on the program should the risk occur,
          •    phase of Sentinel affected by the risk,
          •    person responsible for managing the risk,
          •    OMB risk category,
          •    severity of the risk as voted by the Risk Review Board,
          •    probability the risk will occur as voted by the Risk Review
               Board,
          •    strategy to mitigate the risk,
          •    risk status,
          •    contingency trigger, and
          •    contingency plan

       The risk register lists open risks in rank order based on the risks’
probability and severity ratings. The PMO is responsible for tracking
and periodically reviewing risks that are closed or resolved to prevent
recurrence and to document the effectiveness and any unintended
consequences of the mitigation strategy employed. Generally,
Sentinel’s mitigation strategy has been to develop a series of actions
that will decrease the probability a risk will occur or the severity of a
risk’s impact on Sentinel.

     As of August 2006, the FBI had identified, and was managing, 20
open risks to the Sentinel program, including the five top-ranked risks:

      •       new model for data access and control (access rules) may
              impact project schedule and budget;

      •       user requirements may change significantly as a result of the
              business process reengineering initiative and impact
              Sentinel’s schedule and budget;

                                      - 35 -
      •   absent an authoritative source of identity attributes, Sentinel
          must internally develop identity attributes for Role Based
          Access Control, and impact on FBI Enterprise Directory
          Service requirements is unknown;

      •   development contractor hiring is lagging in providing the
          resources needed to complete design work; and

      •   lack of attendance or participation by users in training.

       The severity of 9 of the 20 risks was classified as high, meaning
that if the risks occurred they would have a major impact on Sentinel’s
schedule, cost, or performance. One risk was classified as having a
high probability of occurring. However, no high-impact risk was
judged to have a high probability of occurrence. Many of these risks
addressed subjects raised in our interviews of FBI personnel working
on Sentinel, including successfully migrating data from ACS to
Sentinel.

      We view the FBI’s ability to successfully migrate data from the
antiquated ACS system to Sentinel as a potentially significant
challenge. If the migration were to fail or be seriously delayed, the
FBI would need to try maintaining its legacy ACS system with all of its
flaws. An inability to migrate the ACS data would also result in a
Sentinel system that builds its data from the present day forward,
without the benefit of years of investigative data compiled in the old
system. Further, should ACS cease to be maintainable, that data
could effectively be lost. The Sentinel Program Manager told us that
the task of “cleaning” and reconciling the ACS data for migration into
Sentinel is not technically difficult, and the FBI plans to use an
available COTS software tool for that purpose. However, he pointed
out that it will take a significant amount of work to accomplish. He
also said that as a preventative measure intended to eliminate any
delays in the overall project due to data cleansing, the FBI plans to
cleanse data in the phase preceding the phase in which the data will
be transferred to Sentinel.

       Another potential risk in our opinion is the extent to which
Sentinel will actually use commercial-off-the-shelf software modules as
intended. A high degree of customization of the software could result
in increased costs and schedule delays. The Sentinel Program
Manager told us that the components for Sentinel are all off-the-shelf
and little or no customization is anticipated. However, the key task

                                  - 36 -
will be configuring Sentinel’s various applications – such as the
workflow, document management, searching and reporting, and
electronic signatures – to all work together. The Program Manager
noted that Lockheed Martin has successfully configured similar
systems in other major projects, using some of the same software
modules, including one at the Social Security Administration.

      The August 2006 risk register also included 43 closed risks.
Most of these risks had been closed for the following four reasons: the
time for the risk to occur had passed; all the steps in the mitigation
strategy had been completed; the risk was divided into multiple risks;
or the risk was consolidated with another risk.

      Our review of the risk register showed that the majority of the
20 open risks are most likely to affect the first two phases of the
Sentinel project. As shown in the following chart, the Risk Review
Board classified 15 of the 20 (75 percent) risks as having a potential
impact on Phases 1 and 2.33 Of the 6 risks identified as having a
potential impact on Phase 1, all but 2 were ranked within the top 10
highest priority risks. Appendix 5 lists the 20 risks in order of priority
as well as the phase of Sentinel they could affect.

                       Open Risks by Sentinel Phase



                          Phase 4
                             2
                                              Phase 1
                     Phase 3                     6
                        2                                               Phase 1
                                                                        Phase 2
                                                                        Phase 3
                                                                        Phase 4

                           Phase 2
                              9



       Source: OIG analysis of FBI data



       33
           One risk was not assigned a phase in the risk register; as a result, the
chart includes a total of 19 risks rather than 20.

                                        - 37 -
      The register also includes a statement describing the impact
each risk would have on the project should it go unmitigated. We
reviewed these statements and found that the consequences of the
risks may affect the following aspects of Sentinel: the project’s cost
and the need for additional funds, the scope of the work to be
performed and the project’s requirements, the project’s schedule, the
system’s functionality, and user acceptance of the system. As shown
in the following chart, schedule, requirements or scope, and cost or
funding are the most frequent consequence of the risks the FBI is
currently managing.

                         Consequences of the Risks Currently
                         Being Managed by the Sentinel PMO


   12



   10




    8




    6




    4




    2




    0
         Functionality       Schedule   User Acceptance   Requirements/Scope   Cost/Funding

Source: OIG analysis of FBI data

       According to the FBI’s risk management plan, the Sentinel PMO
should develop a “contingency trigger” and a contingency plan for each
risk it is managing that has a probability or severity rated as medium
or higher by the Risk Review Board. A contingency trigger is an event
that would convert a risk into an operational issue and cause the FBI
to implement a risk’s contingency plan. However, we found that the
risk register includes a contingency trigger and contingency plan for



                                            - 38 -
only 3 of the 18 risks required to have a contingency plan.34 In
addition, only one of the five highest-ranked risks had a contingency
trigger or plan. The Sentinel Program Manager told us that in some
cases it is difficult to develop a contingency plan before the FBI’s
preventive actions mitigate the likelihood or severity of the risk.
Instead, he said the PMO is focusing on taking action to prevent risks
from occurring and reducing the impact risks could have on the
program. He also told us that many risks are temporary and as a
project phase progresses the risk may become moot, at which point it
is closed. If a risk occurs, the PMO said the FBI will develop corrective
actions. We believe there should be a contingency plan developed for
each major risk having the potential to result in a significant cost,
schedule, or performance deviation from the project baselines.

Staffing of the Program Management Office

      Due to the importance of the PMO in project oversight, our
previous Sentinel audit raised concerns about the progress in staffing
the Sentinel PMO. The PMO plays a critical role in assuring that the
FBI implements a case management system that meets its needs. The
PMO’s contract and program execution responsibilities include:
(1) cost, schedule, and performance oversight; (2) LCMD project
reviews; (3) award fee evaluations; (4) primary contractor’s
documentation review and acceptance; (5) requirements and risk
management; and (6) budget and financial management. In light of
these responsibilities, having a qualified, dedicated PMO staff focused
on program execution is critical to the success of the Sentinel project.

      Since our March 2006 audit: the planned size of the PMO has
decreased from 76 positions to 73 positions primarily because of less
overlap in the project phases than initially anticipated; the PMO has
reallocated positions among PMO units; and the PMO has filled 14
additional positions.35 As of October, 2006, the PMO consisted of 65 of
the 73 personnel identified in the FBI’s Sentinel Staffing Plan (89
percent) as required to properly oversee the project. According to the
FBI, the objective in staffing the PMO is to form an integrated team of
subject matter experts from government, federally funded research
and development centers, and system engineers and technical

       34
          The remaining two risks did not have probability or severity ratings, so we
could not determine whether they required contingency plans.
       35
          Three hires are in the process of coming on board.



                                       - 39 -
assistance contractors to maximize program expertise.36 The following
table summarizes the PMO’s staffing level as of October 18, 2006, and
shows the progress the FBI has made in staffing the office since
January 2006.

             SENTINEL PMO STAFFING REQUIREMENTS

                                                     Staff on          Staff on
                                  Planned             Board,            Board
Organizational Units
                                  Staff (a)          January           October
                                                       2006            2006 (b)
Program Leadership                     2                 2                  2
Direct Reporting Staff                 8                 6                  8
Organization Change
                                       4                 2                  3
Management Team
Business Management                   14                 9                 13
Program Integration                   10                 10                10
System Development                    25                 21                25
Transition                             5                 1                  4
Operations &
                                       5                 0                  0
Maintenance
 Total                                73                51                 65
Source: The FBI

Notes: (a) Since January 2006, the Sentinel PMO has revised the total planned staff
           from 76 to 73. Also, the plan does not include individuals who are on
           temporary duty assignment to the project.

       (b) The number of staff on board includes three positions for which the FBI
           has selected candidates and is in the process of hiring.

For a more complete description of PMO staff and their duties, see
Appendix 7.

      The Sentinel Program Manager told us he did not intend to fill all
of the PMO’s eight vacancies immediately because six positions are not

      36
           Federally funded research and development centers are nonprofit
organizations sponsored and funded by the U.S. government to assist government
agencies with scientific research and analysis, systems development, and systems
acquisition.

                                      - 40 -
needed until the project approaches Phase 2, which begins in early
2007. We agree that not filling positions until required is prudent.
However, recruitment efforts need to be timed so that the six positions
are filled when needed, allowing time for processing the new hires,
including conducting background investigations. The FBI plans to
begin recruiting for the Phase 2 positions by the end of October 2006.
Moreover, even if some hiring is delayed, two current vacancies exist.
Of the current vacancies, one is a government position — an
intelligence analyst – and one is a contractor position – a planner. The
Chief of the Business Management Unit said that government positions
were the most difficult to fill because of the FBI’s hiring and
background investigation processes. However, he said the steps the
PMO had taken steps to expedite hiring, including interviewing
applicants who had applied to an open FBI-wide job announcement for
computer scientists, had been successful.

      The Sentinel Program Manager said that he has gained more
insight into the personnel requirements of the PMO and that these
insights led him to decrease the number of planned staff by three and
reallocate the planned staff among the PMO’s units. He said he made
the most significant reduction, the elimination of four positions from
the Transition Unit, because the current schedule has phases of the
project overlapping less than originally anticipated. The following table
shows the changes in the number of planned staff from January 2006
to October 2006.




                                 - 41 -
        Changes in Sentinel PMO Staffing Requirements,
                January 2006 to October 2006

                                             Change in
               Organizational Unit            Planned
                                                Staff
               Organization Change
                                                  -1
               Management Team
               Business Management                -2
               System Development                +2
               Transition                         -4
               Operations &
                                                 +2
               Maintenance
                Total                             -3
             Source: The FBI

In our opinion, the significant turnover of project management during
the Trilogy project – 15 different key IT managers over the course of
its life, including 10 individuals serving as project managers for various
aspects of Trilogy – was a major reason for Trilogy’s problems. As of
August 2006, three staff from the Sentinel PMO (five percent) had left
the PMO since the project’s inception in March 2005. While the PMO
has replaced all three staff, we will continue to monitor turnover of
Sentinel PMO staff in future audits.

Improved Management Processes and Controls

       In the early stages of the Trilogy project, the OIG and GAO
recommended that the FBI establish Information Technology
Investment Management (ITIM) processes to guide the development
of its IT projects. In response, the FBI issued its Life Cycle
Management Directive (LCMD) in 2004 after Trilogy was well
underway. The LCMD established policies and guidance applicable to
all FBI IT programs and projects, including Sentinel. As we reported in
our March 2006 report on Sentinel, we believe the structure and
controls imposed by the LCMD can help prevent many of the problems
encountered in the VCF effort. Since our March 2006 report on
Sentinel, the FBI has further refined its LCMD and is applying the
revised directive to Sentinel.



                                  - 42 -
      The LCMD covers the entire IT system life cycle, including
planning, acquisition, development, testing, and operations and
maintenance. As a result, the LCMD provides the framework for
standardized, repeatable, and sustainable processes and best practices
in developing IT systems. Application of the IT systems life cycle
within the LCMD can also enhance guidance for IT programs and
projects, leverage technology, build institutional knowledge, and
ensure that development is based on industry and government best
practices.

      The LCMD is comprised of four integrated components: life cycle
phases, control gates, project level reviews, and key support
processes. A diagram showing how these components relate to each
other and a description of the life cycle phases, control gates, and
project level reviews is found in Appendix 6.

LCMD Phases and Control Gates

      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects. During
these phases, specific requirements must be met for the project to
obtain the necessary FBI management approvals to proceed to the
next phase. The approvals occur through seven control gates, where
management boards meet to discuss and approve or disapprove a
project’s progression to future phases of development,
implementation, or retirement. As of August 2006, the Sentinel
project had passed through the first four life cycle phases and is
currently in the fifth phase – Design.




                                - 43 -
                          FBI LCMD PHASES

   PHASE NAME                                DESCRIPTION

1. Concept Exploration     Identifies the mission need, develops and
                           evaluates alternate solutions, and develops the
                           business plan.

2. Requirements            Defines the operational, technical and test
   Development             requirements, and initiates project planning.

3. Acquisition Planning    Allocates the requirements among the
                           development segments, researches and applies
                           lessons learned from previous projects, identifies
                           potential product and service providers, and
                           identifies funding.

4. Source Selection        Solicits and evaluates proposals and selects the
                           product and service providers.

5. Design                  Creates detailed designs for system components,
                           products, and interfaces; establishes testing
                           procedures for a system’s individual components
                           and products and for the testing of the entire
                           system once completed.

6. Development and         Produces and tests all system components,
   Test                    assembles and tests all products, and plans for
                           system testing.

7. Implementation and      Executes functional, interface, system, and
   Integration             integration testing; provides user training; and
                           accepts and transitions the product to operations.

8. Operations and          Maintains and supports the product, and manages
   Maintenance             and implements necessary modifications.

9. Disposal                Shuts down the system operations and arranges
                           for the orderly disposition of system assets


       The seven control gate reviews provide management control and
direction, decision-making, coordination, confirmation of successful
performance of activities, and determination of a system’s readiness to


                                 - 44 -
proceed to the next life cycle phase. Decisions made at each control
gate review dictate the next step for the IT program or project and
may include: allowing an IT program or project to proceed to the next
segment or phase, directing rework before proceeding to the next
segment or phase, or terminating the IT program or project. The FBI’s
Investment Management Project Review Board (IMPRB) – comprised of
12 representatives from each FBI division at the Assistant Director
level and 4 representatives from the Office of the Chief Information
Office, including the CIO – is responsible for approving an IT project’s
passing through each control gate.

       At the time of our previous Sentinel audit, the Sentinel project
had received approval for the first two of the LCMD control gates: the
System Concept on July 15, 2005, and the Acquisition Plan on July 29,
2005. As of August 2006, the Sentinel program had not requested or
received approval for the third control gate. According to the Sentinel
program manager, Phase 1 of Sentinel is scheduled to pass through
Control Gate 3, Final Design Review, in late October 2006. Depending
upon the development model employed, programs or projects may
pass through the control gates more than once. Because Sentinel is
being developed in phases, and the contractor must provide a system
design for each phase, the project will pass through Control Gate 3
four times.

      At each control gate, executive-level reviews determine system
readiness to proceed to the next phase of the IT systems life cycle.
Evidence of readiness is presented and discussed at each control gate
review in the form of deliverables, checklists, and documented
decisions. Regardless of the development model used for a particular
program or project, all control gate reviews should be performed
unless an agreement is made to skip or combine them. The control
gate reviews also provide executive-level controls to ensure that IT
projects are adequately supported and reviewed before a project
receives additional funding. Appendix 6 lists the five executive-level
review boards that serve as the decision authority for the control gate
reviews.

      The Gate 2 approval for Sentinel in July 2005 signified that the
IMPRB accepted the overall project approach and cost estimate for
acquiring the Sentinel system. Our previous audit showed that the FBI
generally complied with the requirements of the then-current LCMD in
performing the control gate reviews for Sentinel. However, two
documents had not been completed at the time the control gate review

                                 - 45 -
was conducted: (1) the system security plan could not be developed
at that time because the vendor needed to provide the project design
details and, as of the date of the control gate review, the vendor had
not been selected; and (2) the Independent Verification and Validation
(IV&V) plan, to be implemented by a separate contractor to
independently assess the implementation of the system according to
technical and performance baselines, required a separate contract.

      In August 2006, the Department awarded eight IV&V contracts
for use throughout the FBI and parts of the Department of Justice. In
September 2006, the FBI awarded a task order to Booz Allen Hamilton
under one of those contracts for the IV&V of Phase 1 of Sentinel, with
options for the remaining phases.37 According to the FBI, the
independent contractor will monitor Lockheed Martin’s testing of the
system software to ensure the software performs as intended. As an
interim measure prior to the award of the FBI-wide IV&V contract, the
FBI used one of the contractors supporting the PMO, Keane, Inc., to
provide those services pending the availability of the independent
contractors. To minimize any conflict of interest with its FBI PMO
responsibilities, Keane’s activities have been limited to examining
Lockheed Martin’s performance and not the FBI’s. We believe Keane is
providing a useful service in helping the FBI monitor Lockheed Martin’s
performance to date. However, the FBI and its oversight bodies need
the assurance of a fully implemented IV&V process throughout the
development of Sentinel. We believe this process should begin as
soon as possible, and we intend to review the scope and results of the
IV&V in our upcoming Sentinel audits.

      The system security plan will provide the detail necessary for the
completion of the critical certification and accreditation of the
applications being created for Sentinel. Unless certification and
accreditation is accomplished, Sentinel will not be allowed to operate
due to security risks. According to FBI officials, it was not feasible to
develop Sentinel’s system security plan prior to Sentinel’s final design,
because the security plan is dependent on the design. However, as of
August 2006, Lockheed Martin and the FBI had largely agreed on the
design for Phase 1 of the Sentinel project, and Lockheed Martin
provided the FBI with a draft of the system security plan for that
phase. The Sentinel Program Manager said the plan should be

       37
          At the time our audit, all of the specific IV&V activities for Sentinel had not
been determined. However, IV&V may include oversight of program management
processes and assessments related to the development contractor’s performance.

                                         - 46 -
completed by October 2006 when Lockheed Martin and the FBI are
scheduled to finalize the design of Phase 1.

      The plans for IV&V and system security are, in our opinion,
crucial to ensuring the success of the Sentinel project. We will monitor
the implementation of both plans in our subsequent audit work.

Project-Level Reviews

       Project-level reviews help determine a project’s readiness to
proceed to the next phase of the project life cycle. Each project-level
review provides information to the executive-level control gates as
data is developed and milestones are completed. Appendix 6 includes
a list of the project-level reviews called for in the LCMD from the
beginning of the Concept Exploration Phase to the end of the Design
Phase.

       In the Sentinel Program Management Plan, approved in August
2005, the FBI stated its intention to combine the Design Concept
Review and Preliminary Design Review into a single review as part of
the project’s LCMD tailoring approach. The LCMD provides for the
tailoring of its requirements to meet a specific project’s needs,
allowing a project to combine, streamline or eliminate events, and
modify reports, documents, or deliverables. All tailoring decisions
must be reviewed and approved at the Acquisition Plan Review Control
Gate before finalizing them as part of the Program Management Plan.
A review of the minutes from the Acquisition Plan Review indicates
that the IMPRB was briefed on Sentinel’s LCMD tailoring approach.

     To date, the FBI has conducted the Mission Needs Review,
System Specification Review, Source Selection Acquisition Review,
Contract Implementation Review, Requirements Clarification Review,
combined Design Concept/Preliminary Design Review, and Critical
Design Review. The FBI planned to conduct the Final Design Review in
October 2006.

       Based on our review of meeting minutes and documentation
resulting from these reviews, it appears that the FBI is adhering to
LCMD requirements in conducting these reviews and is following the
schedule for producing the requisite deliverables established in the
Program Management Plan.



                                 - 47 -
Department Investment Review Board

       In addition to the FBI’s management reviews, Sentinel has also
been required to make periodic presentations to the Department
Investment Review Board (DIRB). As part of the Department’s IT
investment management process, the Department Investment Review
Board oversees 10 to 15 of the Department’s IT investments with the
greatest strategic and financial value. Periodic presentations to the
Board, which includes the Deputy Attorney General and the
Department’s CIO, should demonstrate adequate financial and risk
management, alignment with the Department’s mission, and a
sufficient return on investment. Each time Sentinel has appeared
before the DIRB, the DIRB has approved the continued development of
Sentinel. The Office of Management and Budget provides additional
monitoring of Sentinel. For example, Sentinel is on the OMB
government-wide list of high-risk IT projects, meaning that Sentinel is
a high-priority project, not that it is a troubled project. Were the
Sentinel project to encounter serious problems, it could be placed on
the OMB watch list.

Change Management Process

      The FBI has implemented a change management process to aid
in controlling changes in Sentinel’s requirements that could result in
cost growth, schedule delays, or performance problems. As shown in
the following flowchart, the FBI evaluates the potential effect of each
request for change (RFC) on project baselines. Changes that affect
the cost or schedule must be approved by the System Configuration
and Change Management Board and senior FBI management, up to
and including the Deputy Director. According to FBI officials, the FBI
Director has made it clear that the FBI’s requirements should not
necessitate the customization of the commercial software being used
in Sentinel. If the FBI’s business processes conflict with the
capabilities of the software, the FBI is committed to changing its
processes rather than the software. We reviewed five of the six RFCs
and found they were approved in accordance with the FBI’s
procedures.38




      38
           One RFC was approved after we completed audit fieldwork.

                                      - 48 -
Source: The FBI’s Sentinel Configuration Management Plan



                                 - 49 -
       However, while the FBI has established a reasonable system for
limiting changes to the system’s requirements, the Sentinel PMO does
not control all events that could affect Sentinel’s requirements. For
example, the Sentinel PMO does not control the FBI’s legacy systems
or policy changes affecting the FBI. The FBI continues to improve
several IT systems that will either interface with Sentinel or be
subsumed by Sentinel. These upgrades could add to the scope of
Sentinel’s requirements by making more difficult the required
interfaces. For example, the FBI continues to improve Guardian, an
incident tracking system that Sentinel is expected to replace.
According to Sentinel’s risk register, changes to Guardian may lead to
changes in Sentinel’s functional or interface requirements, causing
delays or cost increases. Also, changes in the FBI’s policies governing
access to FBI computer systems could affect Sentinel’s requirements.

Information Sharing

       Executive Order 13356 requires that federal agencies design
information systems with priority given to the interchange of terrorism
information among agencies and between agencies and appropriate
authorities of state, local, and tribal governments. According to FBI
officials, the FBI will build Sentinel to share information based on the
National Information Exchange Model (NIEM), a joint project of the
Departments of Justice and Homeland Security.39 The NIEM also has
the support of the Director of National Intelligence. When finalized,
the model will essentially become the new government-wide law
enforcement and intelligence agency standard and will serve as the
vehicle for future information exchange. However, because the NIEM
standards have not been finalized, the FBI has not modified Sentinel’s
information sharing requirements to meet the draft NIEM standards
currently available. FBI officials said that Sentinel will be modified to
meet final NIEM standards.




       39
          The Sentinel statement of work, which was developed prior to the release
of the draft National Information Exchange Model, requires Sentinel to be built to the
Global Justice XML Model.



                                       - 50 -
The National Information Exchange Model

       Agencies are not able to exchange information if they maintain
legacy systems that were not designed for information exchange. The
NIEM information sharing standard, which FBI officials said should be
finalized in January 2007, is intended to create a national enterprise-
wide framework to facilitate information sharing across all levels of
government by developing common information exchange standards.

        Previously, many agencies shared information with other
agencies on a strict “need-to-know” basis and therefore provided little
or no access to their systems. In addition, many agencies maintained
databases with applications residing on networks that could not
communicate with other agencies’ networks. As a result of the
September 11, 2001, terrorist attacks, information sharing became a
high priority. Agencies found that they did not have enough time or
resources to modify their systems fast enough to allow for real time
information exchange. In an attempt to remedy the immediate
problem, agencies built “bridges” to facilitate information exchange,
such as Law Enforcement Information Exchange (LInX) and the
Regional Data Exchange (R-DEx).40 R-DEx permits data to be
accessed from another computer system and, based on security
clearance and the need to know the information, the requester is
permitted access to information up to the security level deemed
necessary. Standards had to be developed so that information is
characterized the same way, no matter what agency originates it, to
facilitate the information exchange. NIEM is the effort to standardize
the data.




       40
          The LInX initiative is a project designed to enhance information sharing
between local, state, and federal law enforcement by providing participating law
enforcement agencies with secure access to regional crime and incident data,
enabling investigators to search across jurisdictional boundaries to help solve crimes
and resolve suspicious events. R-DEx gives state, local, and tribal law enforcement
access to federal investigative and intelligence information. R-DEx provides
detectives, investigators, and analysts the ability to view the linkage across multiple
cases and their jurisdictions. These links include individuals, vehicles, weapons,
addresses, phone numbers or other types of links. It also allows cases to be plotted
on maps in order to identify geographical patterns or links.



                                        - 51 -
Interagency Coordination on Sentinel

      We interviewed representatives from the Drug Enforcement
Administration (DEA), the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), and the Department of Homeland Security (DHS) to
determine the extent of each agency’s involvement with Sentinel and
the need to retrofit their case management systems to communicate
with Sentinel.

      According to the DEA, two staff members participated in Sentinel
coordination meetings and used these meetings to identify changes to
Sentinel that would require the DEA to retrofit its case management
system, Impact. The DEA is also involved with the development and
usage of the NIEM information sharing standard.

       The ATF told us it has had limited involvement with Sentinel.
The ATF has a representative on the DIRB as a non-voting member
and has another staff member who serves as the liaison with the FBI
for Sentinel. The ATF is trying to avoid investing large amounts of
money in its case management system until after Sentinel is
developed because the ATF representative believes that modifications
will be needed to its case management system, N-Force. The ATF
representative said that if the FBI builds a generic system that other
agencies can use, it will be good for everyone; if not, it will not be very
helpful to the ATF. In response, FBI officials said Sentinel will be a
flexible system that other agencies can configure to meet their needs.

      According to a DHS official, a DHS representative will participate
with the FBI on the FBI Change Control Board. The DHS
representative stated that during the early stages of the Sentinel
project, the DHS provided four of its employees and two contractors to
support the Sentinel PMO in the areas of case management, system
analysis, biometrics, immigration enforcement, strategic planning, and
technical architecture. Similar to concerns expressed by the ATF, the
DHS hopes Sentinel will not be too FBI-specific so that it will be usable
by other agencies. The DHS is developing its own case management
system, the Consolidated Enforcement Environment, and expects to
use some of the knowledge and reusable components from Sentinel to
reduce the costs of DHS’s own case management system.




                                  - 52 -
Lockheed Martin’s Observations on Sentinel

       During our audit, we met with Lockheed Martin’s project
manager for Sentinel to obtain his perspective on how the project is
progressing. The project manager stated that he is confident the
project would meet its targeted budget and schedule, but that there
were project risks that need ongoing attention. In his opinion, user
acceptance and utilization was the most significant risk to the project.
He explained that this risk is being addressed in several ways during
the implementation of Sentinel. First, a prototype of the Phase 1
products were provided to agents in three field offices to obtain input
on what should be added, removed, or changed. Similar assessments
would be made in the future phases of Sentinel. Second,
organizational change management strategies were being
implemented within the FBI so that the transition from current
workflows and IT systems used by agents and analysts to the new
Sentinel workflow and systems would be facilitated. For example,
Sentinel users will be trained as the system is brought online. This
would allow users to immediately utilize the training on how to operate
the system. System trainers will remain after the system is brought
online in order to assist any users requiring further training or help.
Finally, the project manager said that Lockheed Martin is taking steps
to ensure that all of the significant workflows that will be affected by
Sentinel will be addressed in planning the system. This will ensure
that users will readily use the system to perform their day-to-day
activities.

       While the project manager viewed user acceptance and
utilization as a significant risk, and Lockheed Martin is taking steps to
ensure that the processes that need to be included within Sentinel are
covered, we believe other risks are more significant, as discussed
earlier in this report. In our view, because Sentinel will be the only
FBI case file system and employees will have to use the system in
order to perform their jobs, we do not believe user acceptance and
utilization is a significant concern. However, a related risk, that all of
the processes used by the FBI are included within the functionality of
Sentinel, is a greater concern. We believe that the steps being taken
by the FBI and Lockheed Martin should ensure that all of the necessary
workflow processes are included within Sentinel. In future audits we
will monitor whether agents and analysts are finding the new Sentinel
applications to be user-friendly and include all of the required
functionality necessary to perform their jobs.


                                  - 53 -
      Other risks the Lockheed Martin project manager identified
include the control over system requirements, the migration of data
from the antiquated ACS system to Sentinel, and the connectivity of all
of the field offices to the Sentinel databases. He noted that the FBI is
paying particular attention to the requirements of the system and
making efforts to eliminate “requirements creep.” The project
manager pointed out that to date the FBI has only made six requests
for change. Of those requests, one involved a security item that
Lockheed Martin was implementing differently than the FBI
anticipated. Lockheed Martin agreed to change the way the security
issue was implemented and funded the changes through its
management reserve. Four of the requests for change amounted to
issues that were implemented at no cost and did not affect the project
schedule. Lockheed Martin is considering the sixth request, which
deals with the project’s cost classification system.

      The project manager told us that Lockheed Martin and the FBI
are dealing with the risks involved in migrating ACS data to Sentinel.
He explained that a software tool had been purchased to take the data
from the ACS and “cleanse” it by determining the attributes of the
data, placing the data into defined categories, and then placing the
data into the correct locations in Sentinel. The significant risks of this
process include the creation of rules to properly categorize the data
within ACS and place it in Sentinel, and also what occurs when data is
not properly cleansed. To address this risk, the software has been
tested using sample case files. However, according to the project
manager, until actual case file information is used, it will not be known
how many of the case files will not be able to be cleansed and
uploaded into Sentinel. For those case files that cannot be cleansed, a
review board of Lockheed Martin and FBI personnel has been
established to manually review the data and determine where it should
be placed within the Sentinel system. Because no one knows how
many case files will not be able to be cleansed, the time required to
cleanse or review all of the ACS case file data cannot be estimated. As
discussed earlier in this report, we consider the migration of data from
ACS into Sentinel as a significant risk that could affect both the cost
and schedule of bringing Sentinel fully online.

      The last risk the Lockheed Martin project manager cited was that
of the FBI’s IT infrastructure being able to adequately handle the
signal traffic over its networks. With the creation of a true electronic
case file system that will be used by about 15,000 agents and
analysts on a continuing basis, a substantial network is required so

                                  - 54 -
that the information can be passed quickly within the system.
According to the project manager, Lockheed Martin is not responsible
within the Sentinel contract to ensure that the FBI’s entire network
operates efficiently. Instead, Lockheed Martin is responsible for
building the hardware and software portions of Sentinel that will be
located at two sites, one as the primary site and the second as a
backup site. The FBI is responsible for networking the system. We
agree with Lockheed Martin that the connectivity of Sentinel is a major
concern, and we will be following up on this concern in future audit
work.

      The project manager said that from his perspective Lockheed
Martin and the FBI are working well together. Specifically, there has
been significant interaction between the two groups in management
meetings, including the risk boards that have been established both by
the FBI and by Lockheed Martin. Working groups have also been
established between the two organizations where Lockheed Martin’s
teams responsible for drafting products are working with FBI staff
responsible for reviewing the products, thereby providing clear
communications on what is expected for each product. Overall, the
project manager believed that the FBI is performing well its role as a
good customer in providing direct feedback and maintaining the
original requirements for the Sentinel project.

       Regarding the Sentinel budget, the project manager stated that
Lockheed Martin’s costs possibly could be held to under the
$305 million contract amount because of two changes in the
implementation of the project. First, since the time of Lockheed
Martin’s proposal for the project, new hardware to house database files
has come on the market that will lessen the cost of some aspects of
the project. Second, the FBI reduced the requirement for the number
of trainers needed by performing the training at fewer locations. The
training plan originally called for about 120 trainers, but now requires
only about 50 over the 6 to 7 weeks of implementation in the field for
Phase 1.

Conclusion

      By establishing stronger ITIM processes and an array of
monitoring and control mechanisms, the FBI has positioned itself to
better manage the Sentinel project and avoid the problems that
occurred in the Trilogy and VCF projects. However, FBI officials
agreed this does not mean that Sentinel is risk free. While the FBI has

                                 - 55 -
corrected or alleviated many of the concerns we raised in our March
2006 report, several areas warrant continued attention to avoid
potentially serious problems as the project progresses.

       As a result of management improvements and the FBI’s
structuring of Sentinel into four phases, Sentinel poses much less risk
to the FBI than the failed VCF project. Management improvements
that reduce the risks include rigorous reviews and control gates
required by the FBI’s LCMD; new procedures to track and control
costs; the use of an EVM system to detect deviations from cost,
schedule, or performance baselines; a change management control
process; and a risk management process. Risks are also minimized by
the way the FBI structured the Sentinel program, such as the use of
off-the-shelf components, conducting the project in a phased approach
with specific deliverables, and the establishment of firm baselines and
design requirements for each project phase. Further, the FBI will
adopt the new information sharing standards required by the
Department, has made progress toward completing and implementing
plans for system security and the IV&V of the system, and has added
staff to the Sentinel PMO.

      However, some of the concerns from our March 2006 report
remain. These concerns include: (1) uncertainty over the funding for
the project and the effect on the FBI’s operations should an
unexpected level of reprogramming of FBI funds be required to
continue Sentinel, and (2) the need to fill remaining vacancies in the
Sentinel PMO to ensure proper FBI oversight of the project. In
addition, our current review identified concerns over: (1) the
uncertainty of total project cost estimates, and (2) the need for
contingency plans for the risks the PMO is currently monitoring.
Because the FBI has, in our judgment, only a tentative estimate of
project costs, we believe the FBI needs to periodically update its cost
estimate for the Sentinel project based on actual cost experience and
inform Congress and the Department of any revisions to its estimate.
We also believe the FBI should establish contingency plans for risks
that could seriously affect the cost, schedule, or performance of the
Sentinel project.

      We believe the FBI’s approach to the Sentinel project and the
processes and controls it has developed, if implemented and followed,
provide reasonable assurance that Sentinel can be developed and
deployed successfully. However, there are serious project risks such
as the ability to configure all of Sentinel’s components into a seamless

                                 - 56 -
system and to migrate ACS data into Sentinel. Project costs and
funding are also somewhat uncertain. The OIG will continue to
monitor and periodically issue audit reports throughout the four
overlapping phases of the FBI’s Sentinel project in an effort to track
the FBI’s progress and identify any emerging concerns.

Recommendations

      We recommend that the FBI:

      1. Ensure the management reserve is based on an assessment
         of project risks for each phase and for the project overall.

      2. Periodically update the estimate of total project costs as
         actual cost data is available.

      3. Complete contingency plans as required by the Sentinel Risk
         Management Plan.

      4. Ensure that the IV&V process is conducted through project
         completion.

      5. Complete hiring as soon as possible for the vacant PMO
         positions needed during the current phase of the project.




                                 - 57 -
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      This audit assessed the FBI’s implementation of the contract for
its Sentinel case management project. In connection with the audit,
as required by the Government Auditing Standards, we reviewed
management processes and records to obtain reasonable assurance
that the FBI’s compliance with laws and regulations that, if not
complied with, in our judgment, could have a material effect on FBI
operations. Compliance with laws and regulations applicable to the
FBI’s management of the Sentinel project is the responsibility of the
FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •   OMB Circular A-11 and Memorandum M-05-23,
     •   Executive Order 13356 (superseded by "Executive Order
         13388: Further Strengthening the Sharing of Terrorism
         Information to Protect Americans," dated October 25, 2005),
     •   DOJ Order 2880.1b,
     •   Federal Acquisition Regulations,
     •   FBI Life Cycle Management Directive,
     •   Department of Defense Programmer’s Guide to the Integrated
         Baseline Review,
     •   American National Standards Institute/Electronic Industries
         Alliance Standard 748A: Earned Value Management Systems,
         and
     •   National Defense Industrial Association Earned Value
         Management System Intent Guide and Surveillance Guide.

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to transactions that were not tested, nothing came to our
attention that caused us to believe that FBI management was not in
compliance with the laws and regulations cited above.




                                 - 58 -
               STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the FBI’s contract for its
Sentinel project, we considered the FBI’s internal controls for the
purpose of determining our audit procedures. This evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole. However, we noted certain matters that we
consider to be reportable conditions under the Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its Sentinel project. During our audit, we
found the following internal control deficiencies.

      •   Funding for Sentinel Phase 2 not completely identified.

      •   Contingency plans for project risks need to be developed.

      •   The FBI’s Program Management Office for Sentinel is not yet
          fully staffed.

      Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in contracting for the Sentinel project.
This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                  - 59 -
                                                           APPENDIX 1

            OBJECTIVES, SCOPE, AND METHODOLOGY

Objective

       The objectives of this audit were to determine: (1) the progress
the FBI has made in resolving the concerns identified in our first report
on the planning for Sentinel, and (2) if the contract with Lockheed
Martin and the FBI’s ITIM processes and project management are
likely to contribute to the successful implementation of Sentinel.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objective. We conducted work at the FBI
Headquarters in Washington, DC, and at the FBI Sentinel Program
Management Office in McLean, VA.

       To perform our audit, we interviewed officials from the FBI, DEA,
ATF, DHS, and the Department of Justice. We also interviewed
officials from Lockheed Martin and other contractors supporting the
PMO. We reviewed documents related to the Sentinel contract; cost
and budget documentation; Sentinel plans, processes and guidelines;
and the prior OIG Sentinel report.

      To evaluate the FBI’s implementation of the Sentinel contract,
we examined the contract as well as associated amendments and
documentation, underlying cost estimates, and methodologies for
contract modifications. We interviewed officials responsible for cost
estimates, source selection, and contract award and implementation.

      To update issues identified in the OIG’s March 2006 Sentinel
audit report, we interviewed responsible FBI and contractor officials
and reviewed plans and procedures for IV&V, EVM, cost tracking,
information sharing, and training. We also interviewed FBI officials
and obtained updated status on issues related to financial
reprogramming and PMO staffing.




                                 - 60 -
                                                    APPENDIX 2

                        ACRONYMS

ACS     Automated Case Support
ANSI    American National Standards Institute
ATF     Bureau of Alcohol, Tobacco, Firearms and Explosives
BEARS   Budget Execution and Analysis      Reporting System
CFO     Chief Financial Officer
CIO     Chief Information Officer
COTR    Contracting Officer’s Technical Representative
COTS    Commercial Off-the-Shelf
DEA     Drug Enforcement Administration
DHS     Department of Homeland Security
DIRB    Department Investment Review Board
EIA     Electronic Industries Alliance
EVM     Earned Value Management
FBI     Federal Bureau of Investigation
FICMS   Federal Investigative Case Management System
FMS     Financial Management System
FY      Fiscal Year
GAO     Government Accountability Office
GEMPC   Government’s Estimated Most Probable Cost
GOTS    Government Off-the-Shelf
IBR     Integrated Baseline Review
IOC     Initial Operational Capability
IMPRB   Investment Management Project Review Board
ITIM    Information Technology Investment Management
IT      Information Technology
IV&V    Independent Verification & Validation
LCMD    Life Cycle Management Directive
LInX    Law Enforcement Information Exchange
MOU     Memorandum of Understanding
NIEM    National Information Exchange Model
O&M     Operations and Maintenance
OCIO    Office of the Chief Information Officer
OCM     Organization Change Management
OIG     Office of the Inspector General
OMB     Office of Management and Budget
PMO     Program Management Office
R-DEx   Regional Data Exchange



                            - 61 -
RFC   Request For Change
UNI   Universal Index
VCF   Virtual Case File




                           - 62 -
                                                            APPENDIX 3

                PRIOR REPORTS ON THE FBI’S
                 INFORMATION TECHNOLOGY

      Below is a listing of relevant reports discussing the FBI’s
information technology systems. These include reports issued by the
Department of Justice, Office of the Inspector General (OIG), the
Government Accountability Office (GAO), and by other external entities
as well as FBI internal reports.

Prior OIG Reports on FBI Case Management Efforts

      In March 2006, the OIG issued a report entitled The Federal
Bureau of Investigation’s Pre-Acquisition Planning For and Controls
Over the Sentinel Case Management System. The report found that
the FBI had taken important steps to address its past mistakes in
planning for the development of Sentinel. The report identified the
following areas of concern:

     •   the incomplete staffing of the PMO,

     •   the FBI’s ability to reprogram funds to complete the second
         phase of the project without jeopardizing its mission-critical
         operations,

     •   Sentinel’s ability to share information with external
         intelligence and law enforcement agencies and provide a
         common framework for other agencies’ case management
         systems,

     •   the lack of an established EVM process,

     •   the FBI’s ability to track and control Sentinel’s costs, and

     •   the lack of complete documentation required by the FBI’s
         ITIM processes.

      The OIG concluded that these areas of concern required action
and continued monitoring by the FBI, the OIG, and other interested
parties.



                                  - 63 -
      In February 2005, the OIG issued a report entitled, The Federal
Bureau of Investigation’s Management of the Trilogy Information
Technology Management Project, which encompassed Sentinel’s
predecessor, the Virtual Case File (VCF). The OIG recommended the
FBI take the following steps:

     •   Replace the obsolete ACS system as quickly and as cost
         effectively as feasible.

     •   Reprogram FBI resources to meet the critical need for a
         functional case management system.

     •   Freeze the critical design requirements for the case
         management system before initiating a new contract and
         ensure that the contractor fully understands the requirements
         and has the capability to meet them.

     •   Incorporate development efforts for the VCF into the
         development of the requirements for any successor case
         management system.

     •   Validate and improve as necessary financial systems for
         tracking project costs to ensure complete and accurate data.

     •   Develop policies and procedures to ensure that future
         contracts for IT-related projects include defined requirements,
         progress milestones, and penalties for deviations from the
         baselines.

     •   Establish management controls and accountability to ensure
         that baselines for the remainder of the current user
         applications contract and any successor Trilogy-related
         contracts are met.

     •   Apply ITIM processes to all Trilogy-related and any successor
         projects.

     •   Monitor the Enterprise Architecture being developed to ensure
         timely completion as scheduled.

     The report concluded that the difficulties experienced in
completing the Trilogy project were partially attributable to:


                                 - 64 -
(1) design modifications the FBI made as a result of refocusing its
mission from traditional criminal investigations to preventing
terrorism, (2) poor management decisions early in the project,
(3) inadequate project oversight, (4) a lack of sound IT investment
practices, and (5) not applying lessons learned over the course of the
project.

External Reports on FBI Case Management Efforts

      In May 2006, the GAO released a report titled Weak Controls
over Trilogy Project Led to Payment of Questionable Contractor Costs
and Missing Assets that was critical of the FBI’s controls over costs and
assets of its Trilogy project. The GAO found that the FBI’s review and
approval process for Trilogy contractor invoices did not provide an
adequate basis for verifying that goods and services billed were
actually received and that the amounts billed were appropriate, leaving
the FBI highly vulnerable to payments of unallowable costs. These
costs included first-class travel and other excessive airfare costs,
incorrect charges for overtime hours, and charges for which the
contractors could not document costs incurred. The GAO found
unsupported and questionable costs in the amount of $10 million. The
GAO also found that the FBI failed to establish controls to maintain
accountability over equipment purchased for the Trilogy project.
According to the GAO, poor property management led to 1,200
missing pieces of equipment valued at $7.6 million.

       The National Research Council issued a report in May 2004
entitled A Review of the FBI’s Trilogy Information Technology
Modernization Program. The report found that the program was not
on a path to success, and identified the following needs:

      •   valid contingency plan for transitioning from the old case
          management system to the new one,

      •   completed Enterprise Architecture,

      •   adequate time for testing the new system prior to
          deployment,

      •   improved contract management processes, and

      •   expanded IT human resources base.


                                  - 65 -
      The report concluded that the FBI had made significant progress
in some areas of its IT modernization efforts, such as the
modernization of the computing hardware and baseline software and
the deployment of its networking infrastructure. However, because
the FBI’s IT infrastructure was inadequate in the past, there was still
an enormous gap between the FBI’s IT capabilities and the capabilities
that were urgently needed.

      The report was updated in June 2004 as a result of what the
Council deemed clear evidence of progress being made by the FBI to
move ahead in its IT modernization program. This included the
appointment of a permanent CIO and the formation of a staffed
program office for improved IT contract management. The progress
being made by the FBI appeared to the Council to have been more
rapid than expected, although many challenges remained. The Council
also emphasized that the FBI’s missions constitute increasingly
information-intensive challenges, and the ability to integrate and
exploit rapid advances in IT capabilities will only become more critical
with time. The update concluded that even with perfect program
management and execution, substantial IT expenses on an ongoing
basis are inevitable and must be anticipated in the budget process if
the FBI is to maximize the operational leverage that IT offers.

       In September 2004, the GAO issued a report entitled,
Information Technology: Foundational Steps Being Taken to Make
Needed FBI Systems Modernization Management Improvements. This
report stated that although improvements were under way and more
were planned, the FBI did not have an integrated plan for modernizing
its IT systems. Each of the FBI’s divisions and other organizational
units that manage IT projects performs integrated planning for its
respective IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help
optimize mission performance, and they did not consistently contain
the elements expected to be found in effective systems modernization
plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until the FBI developed an integrated
systems and modernization plan and effective policies and procedures
for systems acquisition and investment management. Additionally, the
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.




                                 - 66 -
     In April 2005, the House Surveys and Investigations staff issued
A Report to the Committee on Appropriations, U.S. House of
Representatives, which concluded that:.

      •   VCF development suffered from a lack of program
          management expertise, disciplined systems engineering
          practices, and contract management. The project also was
          affected by a high turnover of Chief Information Officers and
          program managers.

      •   VCF development was negatively impacted by the FBI’s lack
          of an empowered and centralized Office of Chief Information
          Officer and sound business processes by which IT projects are
          managed.

      •   The FBI’s decision to terminate VCF was related to
          deficiencies in the VCF product delivered, failure of a pilot
          project to meet user needs, and the new direction the FBI
          planned to take for its case management system.

      •   The FBI’s IT program management business structure and
          processes were, for the most part, in place, although some of
          these processes needed to mature.

FBI Internal Reports on Case Management

      The FBI hired the Aerospace Corporation to perform an
assessment of Commercial Off-the-Shelf (COTS) and Government Off-
the-Shelf (GOTS) systems that could be used in developing a case
management system and also an Independent Verification and
Validation of Trilogy’s Virtual Case File. In December 2004, the
contractor issued the COTS/GOTS Trade Study, which recommended
that the FBI look to systems that have an emphasis on data sharing.
The contractor further recommended that an acquisition strategy be
developed that includes an incremental deployment of core capabilities
and the incremental addition of such components as intelligent search
and reporting and specific analytic capabilities.

       The contractor released the Independent Verification and
Validation of the Trilogy Virtual Case File, Delivery 1: Final Report in
January 2005. The report recommended discarding the VCF and
starting over with a COTS-based solution. The contractor concluded
that a lack of effective engineering discipline had led to inadequate

                                   - 67 -
specification, design, and development of VCF. Further, the contractor
could find no assurance that the architecture, concept of operations
and requirements were correct or complete, and no assurance that
they could be made so without substantial rework. In sum, the
contractor reported that VCF was a system whose true capability was
unknown, and whose capability may remain unknown without
substantial time and resources applied to remediation.

Other OIG Reports on the FBI’s IT

      OIG reports issued over the past 15 years have highlighted
issues concerning the FBI’s utilization of IT, including its investigative
systems. For example, in 1990 the OIG issued a report entitled The
FBI’s Automatic Data Processing General Controls. This report
described 11 internal control weaknesses and found that:

      •     The FBI’s phased implementation of its 10-year Long
            Range Automation Strategy, scheduled for completion in
            1990, was severely behind schedule and may not be
            accomplished;

      •     The FBI’s Information Resources Management program
            was fragmented and ineffective, and the FBI’s Information
            Resources Management official did not have effective
            organization-wide authority;

      •     The FBI had not developed and implemented a data
            architecture; and

      •     The FBI’s major mainframe investigative systems were
            labor intensive, complex, untimely, and non-user friendly
            and few agents used these systems.

       The OIG’s July 1999 special report, The Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation, reported that FBI personnel were not well-
versed in the ACS system and other databases.

      A March 2002 OIG report, entitled An Investigation of the
Belated Production of Documents in the Oklahoma City Bombing Case,
analyzed the causes for the FBI’s belated delivery of many documents
in the Oklahoma City bombing case. This report concluded that the
ACS system was extraordinarily difficult to use, had significant

                                  - 68 -
deficiencies, and was not the vehicle for moving the FBI into the 21
century. The report noted that inefficiencies and complexities in the
ACS, combined with the lack of a true information management
system, were contributing factors in the FBI’s failure to provide
hundreds of investigative documents to the defendants in the
Oklahoma City bombing case.

       In May 2002, the OIG issued a report on the FBI’s administrative
and investigative mainframe systems entitled the Independent
Evaluation Pursuant to the Government Information Security Reform
Act, Fiscal Year 2002. The report identified continued vulnerabilities
with management, operational, and technical controls within the FBI.
The report stated that these vulnerabilities occurred because the
Department and FBI security management had not enforced
compliance with existing security policies, developed a complete set of
policies to effectively secure the administrative and investigative
mainframes, or held FBI personnel responsible for timely correction of
recurring findings. Further, the report stated that FBI management
had been slow to correct identified weaknesses and implement
corrective action and, as a result, many of these deficiencies repeated
year after year in subsequent audits.

       In December 2002, the OIG issued a report on The FBI’s
Management of Information Technology Investments, which included a
case study of the Trilogy project. The report made 30
recommendations, 8 of which addressed the Trilogy project. The
report’s focus was on the need to adopt sound investment
management practices as recommended by the GAO. The report also
stated that the FBI did not fully implement the management processes
associated with successful IT investments. Specifically, the FBI had
failed to implement the following critical processes:

     •     defining and developing IT investment boards,

     •     following a disciplined process of tracking and overseeing
           each project’s cost and schedule milestones over time,

     •     identifying existing IT systems and projects,

     •     identifying the business needs for each IT project, and

     •     using defined processes to select new IT project proposals.


                                 - 69 -
The audit found that the lack of critical IT investment management
processes for Trilogy contributed to missed milestones and led to
uncertainties about cost, schedule, and technical goals.




                                - 70 -
                                                          APPENDIX 4

       COST ESTIMATING METHODOLOGIES USED IN THE
         INDEPENDENT GOVERNMENT COST ESTIMATE

      The Independent Government Cost Estimate methodology
involves the use of six cost estimating techniques, detailed below. The
method chosen to estimate each element of the project was based on
the availability of technical and cost data.

Parametric Modeling - The parametric technique uses a compilation
of historical data to formulate functional relationships (or models).
These relationships are then used to predict the cost of the new
system. The costs for custom-developed software were estimated
using a commercial parametric modeling tool, CostXpert. Cost
Estimating Relationships are a form of parametric estimation, but are
separately defined for clarification.

Cost Estimating Relationships – Cost Estimating Relationships are
factors that are applied against the known costs of a portion of the
system under consideration to estimate the costs of an unknown
portion of the system.

Analogy - Analogy estimation involves drawing parallels between the
system under consideration and other systems for which technical and
cost information is known.

Engineering Assessment - The engineering or "bottom-up"
technique aggregates a cost estimate from resource estimates made
at the lowest level possible. Often the estimate is compiled by
determining the unit cost of each system component, multiplying by
the quantity, and aggregating the results to product total system
costs.

Vendor Quote - The vendor quote technique consists of gathering
cost information directly from specific vendors, contract vehicles, and
catalog resources.

Historical - The historical technique consists of using relevant past
cost data from similar items to estimate the cost of the current item.




                                 - 71 -
                                                                            APPENDIX 5

                                       RISK REGISTER

Rank   Risk Condition        Risk                  Impact   Mitigation Strategy
                             Consequence           Phase
1      New model for         Regarding APG,        1        M1. Actively engage parallel
       data access and       parallel                       development efforts; develop MOUs for
       control (access       development                    content, interfaces and funding
       rules) may impact     efforts may                    strategy; incorporate into Sentinel plans
       Sentinel’s schedule   result in changes              as appropriate.
       and budget.           to Sentinel                    M2. Identify critical interfaces and the
                             functional                     phase they may impact Sentinel.
                             content or                     M3. Establish WG to help establish ICDs
                             interface                      with other projects (ICWG).
                             requirements                   M4. Establish MOUs with other projects
                             and consume                    as applicable.
                             significant                    M5. Identify source of additional funding
                             resources.                     if required.
                                                            M6. Document external systems and
                                                            interface requirements for inclusion in
                                                            the solicitation.
                                                            M7. Establish a working partnership and
                                                            collaborate with the legacy systems’
                                                            owning organization (ITOD).

2      User requirements     Funding and           2        M1. Place the SRS under configuration
       may change            schedule will not              control prior to RFP release.
       significantly as a    support project                M2. Maintain strict requirements and
       result of the BPR     completion.                    configuration controls throughout the
       initiative and                                       project.
       impact Sentinel’s                                    M3. Ensure user advocacy group is the
       schedule and                                         focal point for all user changes/needs.
       budget.                                              M4. Ensure contractors are aware and
                                                            adhere to change process, including
                                                            communication with user community.
                                                            M5. Ensure core FBI capabilities are
                                                            addressed early in system development.
                                                            M6. Ensure continuous feedback with
                                                            user community.
                                                            M7. Concurrence of SRS contents to be
                                                            achieved by each division.




                                                 - 72 -
Rank   Risk Condition         Risk                 Impact   Mitigation Strategy
                              Consequence          Phase
3      Absent an              Time spent on        2        M1 Seek FBI definition of authoritative
       authoritative          creating Role                 identify attributes and authoritative
       source of identity     Based Access                  sources
       attributes, Sentinel   Control may                   M2 Establish identity attribute
       must internally        impact schedule.              standards for Sentinel and FBI use
       develop identity                                     M3 Seek FBI clarification of target
       attributes for Role                                  directory architecture to support
       Based Access                                         centralized management of authoritative
       Control, and                                         identity attributes
       impact to be
       consistent with FBI
       Enterprise Service
       Directory Service
       requirements is
       unknown.

4      Development            Project plans,       2        PM1. Identify the Government and
       contractor hiring is   schedules and                 support contractor resources, (and
       lagging resource       scope will require            associated timeline, skills, et al.) in the
       need to complete       modification;                 Sentinel Project Plan.
       design work.           Sentinel vision               PM2. Assess the realism of Contractor
                              prolonged/ not                staffing during Source Selection.
                              achieved.                     PM3. Define security clearance
                                                            requirements consistent with the access
                                                            required by Development contractor
                                                            personnel, likely reducing the number of
                                                            TS security clearances required.
                                                            M4. Require staffing plan submission,
                                                            with clearance status, in project review
                                                            reporting
                                                            M5. Ensure active govt involvement in
                                                            VAR resolution
                                                            M6. LM has opened up hiring to all
                                                            corporate divisions and Sentinel
                                                            subcontractors and Corporate HR is
                                                            assisting with surge support.

5      Lack of attendance     Poor or slow user    1        M1-- Review the prime contractor's
       or participation by    acceptance of                 approach to market and provide
       users in training.     Sentinel.                     outreach for each Sentinel phase.
                                                            M2-- Validate training approach with
                                                            pilot user group to be followed by
                                                            Bureau executive endorsement.
                                                            M3--Identify method to achieve or
                                                            require sufficient level of training
                                                            participation.




                                                 - 73 -
Rank   Risk Condition       Risk                 Impact   Mitigation Strategy
                            Consequence          Phase
6      Activities related   1. Requires GFE      1        Consequence 1.
       to data cleansing    Data Staging                  M1 Use new staging or SIT hardware to
       of data from         partition by                  perform data cleansing. Delay data
       phased out legacy    11/1/06 (in FBI               cleaning until receipt of hardware.
       systems may have     facility with C&A
       been                 complete and                  Consequence 2a.
       underestimated.      Oracle 10g with               M1 Data Migration alternative trade
                            RAC installed).               studies (IMS UID 2070 &3955)
                            2a. Cleansed
                            data will not be              Consequence 2b.
                            placed back into              M1 Data Migration alternative trade
                            ACS which can                 studies (IMS UID 2070 &3955)
                            result in a long
                            term data                     Consequence 3.
                            synchronization               M1 Cleansing to be done only in FBI
                            problem.                      Facility
                            2b. Placing                   M2 Access limited to select group read
                            cleansed data                 into "process". FBI only?
                            back into the
                            legacy data base              Consequence 4.
                            may impact                    M1 Remove IMS dependencies between
                            those continuing              Data Cleansing and DCR/PDR/CDR
                            to use legacy
                            applications.
                            3. Need to
                            maintain security
                            control of data in
                            staging area
                            (Data will not be
                            protected by ACS
                            or Sentinel
                            access controls)
                            4. Data cleansing
                            is a Phase 2 risk
                            mitigation
                            activity and
                            should not delay
                            Phase 1 critical
                            path activities.




                                             - 74 -
Rank   Risk Condition       Risk                Impact   Mitigation Strategy
                            Consequence         Phase
7      The evolving         To preclude non-    1        √M1. Monitor evolving standards;
       Enterprise           compliance with              perform impact assessments; present
       Architecture can     Enterprise                   assessments to TRB; file deviation
       present new          Standards,                   request or incorporate as appropriate
       design constraints   incorporation of             √M2. Participate in TRB and EAB and
       to Sentinel          changes,                     evaluation of technical inputs. EC
                            deviations,                  submitted
                            and/or corrective            √M3. Develop method to influence EA,
                            actions will                 standards list, and monitor enterprise
                            impact cost,                 mandates (sys arch Mike Reed)
                            schedule and                 √M4. Establish ICWG
                            scope.                       √M5. Ensure EA changes are forwarded
                                                         to Sentinel for review and impact, with
                                                         RFC developed if appropriate
                                                         √M6. System Architect hired and has
                                                         direct liaison with Enterprise Architect
                                                         chief.

8      Data migration       Some data may       2        PM1. Identify all required data elements
       from phased-out      be lost or                   PM2. Develop mapping of ACS elements
       legacy systems       compromised, or              to Sentinel data requirements
       may have been        ACS may not be               M3. Develop migration plan to support
       underestimated       able to be                   data conversion to new environment
                            replaced                     M4. Develop test plan to validate
                                                         migration strategy
                                                         √M5. Ensure management funds
                                                         adequate to provide analysis if required.
                                                         M6. Work with ITOD to determine scope
                                                         of effort
                                                         M7. Review results of previous data
                                                         cleansing efforts for issues, provide
                                                         lessons learned to LM
                                                         M8. Ensure system design provides for
                                                         migration.
                                                         M9. Integration of data, design and
                                                         migration IPTs




                                              - 75 -
Rank   Risk Condition         Risk                  Impact   Mitigation Strategy
                              Consequence           Phase
9      Use of PKI requires    The risk here is      2        M3 - Transfer Bureau roll-out and use of
       the user to change     fundamentally                  PKI enabled infrastructure to Trilogy
       their logon routine    one of having                  prior to the Sentinel use so that the
       from a                 users fail to                  issue is addressed for most users
       UID/Password           accept Sentinel                independent of Sentinel.
       approach to using      because of, or in              M4 - Decision will have to be made as to
       tokens, readers,       association with,              whether to use non-PKI enabled
       and pin numbers.       their negative                 authentication for Phase 1. (Contractor
       The transition to      reaction to their              must implement some form of
       this mode of logon     initial use of PKI-            authentication for "non-general" users)
       will inevitably        enabled logon                  M5 - Add PKI to communications
       antagonize many                                       strategy (get the word out in training
       users, although,                                      and all communications, etc.)
       once they get used
       to it they most
       likely will not find
       it problematic.

10     Proposed               Imprecise             2        M1 Investigate Intelligence Community
       Controlled             requirements                   certified products.
       Interface solution     could lead to
       does not meet the      scope creep.                   M2 Evaluate cross domain design and
       requirements for                                      present a design at Program Design
       information                                           Review (PDR) that most effectively
       sharing with                                          meets required functionality and cross
       systems classified                                    domain security requirements.
       higher than
       Collateral Secret                                     M3 Evaluate product and design
       (e.g., with                                           recommendations and adjudicate via
       Intelligence                                          Engineering Review Board (ERB) and
       Community) and                                        Sentinel Configuration and Change
       with systems at a                                     Management Board (SCCMB).
       lower classification
       level (e.g., state
       and local law
       enforcement).




                                                - 76 -
Rank   Risk Condition        Risk                Impact   Mitigation Strategy
                             Consequence         Phase
11     LCMS is an            Parallel            1        M1. Actively engage parallel
       interface to          development                  development efforts; develop MOUs for
       Sentinel, but the     efforts may                  content, interfaces, and funding
       legacy program        result in changes            strategy; incorporate into SENTINEL
       continues to          to Sentinel's                plans as appropriate
       modify the            functional or                √M2. Identify critical interfaces and the
       application,          interface                    phase that they may impact Sentinel
       thereby adding to     requirements                 √M3. Establish WG to help establish
       Sentinel's risk for   that may cause               ICDs with other projects (ICWG)
       uncontrolled          delays or                    M4. Establish MOUs with other projects
       scope, schedule,      increase cost.               as applicable
       and cost.                                          M5. Identify source of additional
                                                          funding if required
                                                          PM6. Document external systems and
                                                          interface requirements for inclusion in
                                                          the solicitation.
                                                          PM7. Establish a working partnership
                                                          and collaborate with the legacy systems’
                                                          owning organization (ITOD).

12     Privacy Impact        Cost and            2        M1-- Work with OGC to define the hard
       Assessment (PIA)      schedule could               system requirements and verify against
       requirements          expand to                    the SRS, include OGC (PIA centric)
       impact cost and       accommodate                  personnel in our high level design
       schedule              new                          meetings, so they can understand what
                             requirements                 and how various data elements are
                                                          being used.
                                                          M2-- Work with OGC and DNI to
                                                          accommodate 'interim, best guess'
                                                          requirements; comply with RFC process
                                                          as requirements firm up
                                                          M3-- Document DNI/OGC guidance
                                                          through use of ECs




                                              - 77 -
Rank   Risk Condition         Risk                Impact   Mitigation Strategy
                              Consequence         Phase
13     N-Dex is an            Parallel            2        M1. Actively engage parallel
       interface to           development                  development efforts; develop MOUs for
       SENTINEL, but the      efforts may                  content, interfaces, and funding
       program continues      result in changes            strategy; incorporate into Sentinel plans
       to modify the          to Sentinel's                as appropriate
       application,           functional or                √M2. Identify critical interfaces and the
       thereby adding to      interface                    phase that they may impact Sentinel
       Sentinel's risk for    requirements                 √M3. Establish WG to help establish
       uncontrolled           that may cause               ICDs with other projects (ICWG)
       scope, schedule,       delays or                    M4. Establish MOs with other projects
       and cost.              increase cost.               as applicable
                                                           M5. Identify source of additional
                                                           funding if required
                                                           PM6. Document external systems and
                                                           interface requirements for inclusion in
                                                           the solicitation.
                                                           PM7. Establish a working partnership
                                                           and collaborate with the legacy systems’
                                                           owning organization (ITOD).
                                                           M8. RFP to extend program has been
                                                           published.

14     Audit Services         Parallel            2        M1. Actively engage parallel
       (ESOC) is an           development                  development efforts; develop MOUs for
       interface to           efforts may                  content, interfaces, and funding
       Sentinel, but the      result in changes            strategy; incorporate into Sentinel plans
       legacy program         to Sentinel's                as appropriate
       continues to           functional or                √M2. Identify critical interfaces and the
       modify the             interface                    phase that they may impact Sentinel
       application,           requirements                 √M3. Establish WG to help establish
       thereby adding to      that may cause               ICDs with other projects (ICWG)
       Sentinel's risk for    delays or                    M4. Establish MOUs with other projects
       uncontrolled           increase cost.               as applicable
       scope, schedule,       ArcSight client              M5. Identify source of additional
       and cost. ESOC         may impact                   funding if required
       plans to use           Sentinel network             PM6. Document external systems and
       ArcSight, a COTS       connectivity,                interface requirements for inclusion in
       application LMSI       bandwidth and                the solicitation.
       also plans to use in   loads from                   PM7. Establish a working partnership
       Sentinel.              passing data.                (an IPT) and collaborate with the legacy
                                                           systems’ owning organization (ITOD).




                                              - 78 -
Rank   Risk Condition        Risk                  Impact   Mitigation Strategy
                             Consequence           Phase
15     DEEP is to be         Parallel              3        M1. Actively engage parallel
       replaced by           development                    development efforts; develop MOUs for
       Sentinel, but the     efforts may                    content, interfaces, and funding
       legacy program        result in changes              strategy; incorporate into Sentinel plans
       continues to          to Sentinel's                  as appropriate
       modify the            functional or                  √M2. Identify critical interfaces and the
       application,          interface                      phase that they may impact Sentinel
       thereby adding to     requirements                   √M3. Establish WG to help establish
       Sentinel's risk for   that may cause                 ICDs with other projects (ICWG)
       uncontrolled          delays or                      M4. Establish MOUs with other projects
       scope, schedule,      increase cost                  as applicable
       and cost.                                            M5. Identify source of additional
                                                            funding if required
                                                            PM6. Document external systems and
                                                            interface requirements for inclusion in
                                                            the solicitation.
                                                            PM7. Establish a working partnership
                                                            and collaborate with the legacy systems’
                                                            owning organization (ITOD).




16     Requirement           Integrated            3        M1. Ensure min. functionality
       definitions           solution will not              requirements can be identified
       necessitate           facilitate                     M2. Conduct analysis of minimum
       inordinate            expansion of                   requirements vs. proposed technical
       customization of      services                       solution
       selected              throughout the                 M3. Ensure at each phase and design
       COTS/GOTS             enterprise as                  review that solution is extendible to the
       products (custom      envisioned                     enterprise
       code)                                                M4. Tag milestones by phase to
                                                            program schedule for monitoring




                                                 - 79 -
Rank   Risk Condition        Risk                Impact   Mitigation Strategy
                             Consequence         Phase

17     EDMS is an            Parallel            4        M1. Actively engage parallel
       interface to          development                  development efforts; develop MOUs for
       Sentinel, but the     efforts may                  content, interfaces, and funding
       legacy program        result in changes            strategy; incorporate into Sentinel plans
       continues to          to Sentinel's                as appropriate
       modify the            functional or                √M2. Identify critical interfaces and the
       application,          interface                    phase that they may impact Sentinel
       thereby adding to     requirements                 √M3. Establish WG to help establish
       Sentinel's risk for   that may cause               ICDs with other projects (ICWG)
       uncontrolled          delays or                    M4. Establish MOUs with other projects
       scope, schedule,      increase cost.               as applicable
       and cost.                                          M5. Identify source of additional
                                                          funding if required
                                                          PM6. Document external systems and
                                                          interface requirements for inclusion in
                                                          the solicitation.
                                                          PM7. Establish a working partnership
                                                          and collaborate with the legacy systems’
                                                          owning organization (ITOD).

18     GUARDIAN is to be     Parallel            4        M1. Actively engage parallel
       replaced by           development                  development efforts; develop MOUs for
       Sentinel, but the     efforts may                  content, interfaces, and funding
       legacy program        result in changes            strategy; incorporate into Sentinel plans
       continues to          to Sentinel's                as appropriate
       modify the            functional or                √M2. Identify critical interfaces and the
       application,          interface                    phase that they may impact Sentinel
       thereby adding to     requirements                 √M3. Establish WG to help establish
       Sentinel's risk for   that may cause               ICDs with other projects (ICWG)
       uncontrolled          delays or                    M4. Establish MOUs with other projects
       scope, schedule,      increase cost                as applicable
       and cost.                                          M5. Identify source of additional
                                                          funding if required
                                                          PM6. Document external systems and
                                                          interface requirements for inclusion in
                                                          the solicitation.
                                                          PM7. Establish a working partnership
                                                          and collaborate with the legacy systems’
                                                          owning organization (ITOD).




                                             - 80 -
Rank   Risk Condition        Risk                  Impact   Mitigation Strategy
                             Consequence           Phase

19     Policy does not       The lack of policy    1        M1 There is a requirement to have a
       currently exist to    could delay the                data model that is compliant with the
       support the           implementation                 latest version of the Global Justice XML
       sharing of Sentinel   of information                 standard. This should accommodate the
       information with      sharing                        appropriate data elements. The
       external agencies.    capabilities.                  program will track with the appropriate
                                                            FBI divisions and the Global Justice XML
                                                            standards groups to ensure that as
                                                            updates occur; this information can be
                                                            passed back to the appropriate Sentinel
                                                            committees for action.

20     Development           Disaster event                 M1 Develop a well defined Disaster
       environment data      causes loss of                 Recovery Plan with contingencies for all
       is lost or            SEI/                           types of anticipated disasters.
       corrupted.            Development
                             data resulting in
                             key milestone/
                             schedule
                             slippages.




                                                 - 81 -
                                                          APPENDIX 6

         THE FBI’S LIFE CYCLE MANAGEMENT DIRECTIVE

      The FBI’s IT Systems Life Cycle Management Directive (LCMD) is
comprised of interrelated components. They include Life Cycle Phases,
Control Gate Reviews & Boards, and Project Level Reviews. Sentinel is
currently in the Design phase of the LCMD.

Phases

      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects. During
these phases, specific requirements must be met for the project to
obtain the necessary FBI management approvals to proceed to the
next phase.

Control Gate Reviews & Boards

      The approvals to proceed from one phase to the next occur
through seven control gates, where management boards meet to
discuss and approve or disapprove a project’s progression to future
phases of development and implementation. The seven control gate
reviews provide management control and direction, decision-making,
coordination, confirmation of successful performance of activities, and
determination of a system’s readiness to proceed to the next life cycle
phase.

Project-Level Reviews

      Project-level Reviews support the IT Systems Life Cycle process.
Project Level Reviews determine program or project readiness to
proceed to the next activities of the project life cycle. Each Project
Level Review feeds information up to the Executive-level Control
Gates, as data is developed and milestones are completed.




                                 - 82 -
                          FBI LCMD PHASES

   PHASE NAME                                DESCRIPTION

1. Concept Exploration     Identifies the mission need, develops and
                           evaluates alternate solutions, and develops the
                           business plan.

2. Requirements            Defines the operational, technical and test
   Development             requirements, and initiates project planning.

3. Acquisition Planning    Allocates the requirements among the
                           development segments, researches and applies
                           lessons learned from previous projects, identifies
                           potential product and service providers, and
                           identifies funding.

4. Source Selection        Solicits and evaluates proposals and selects the
                           product and service providers.

5. Design                  Creates detailed designs for system components,
                           products, and interfaces; establishes testing
                           procedures for a system’s individual components
                           and products and for the testing of the entire
                           system once completed.

6. Development and         Produces and tests all system components,
   Test                    assembles and tests all products, and plans for
                           system testing.

7. Implementation and      Executes functional, interface, system, and
   Integration             integration testing; provides user training; and
                           accepts and transitions the product to operations.

8. Operations and          Maintains and supports the product, and manages
   Maintenance             and implements necessary modifications.

9. Disposal                Shuts down the system operations and arranges
                           for the orderly disposition of system assets




                                 - 83 -
                   FBI LCMD CONTROL GATE REVIEWS

 GATE                               DESCRIPTION

Gate 1   System Concept Review approves the recommended system concept
         of operations and occurs at the end of Phase 1 of LCMD.

Gate 2   Acquisition Plan Review approves the Systems Specification and
         Interface Control documents as developed in Phase 2 and the
         approach and resources required to acquire the system as defined in
         the Acquisition Plan as developed in Phase 3.

Gate 3   Final Design Review approves the build-to and code-to documentation
         and associated draft verification procedures. It also ensures that the
         design presented can be produced and will meet its design-to
         specification at verification. The gate review occurs after the
         contractor is selected in Phase 4 and system design is completed in
         Phase 5.

Gate 4   Deployment Readiness Review approves the readiness of the system
         for deployment in the operational environment. The gate review
         occurs after the system is developed and tested in Phase 6. Approval
         through the Gate 4 signifies readiness for the system implementation.

Gate 5   System Test Readiness Review verifies readiness to perform an
         official system-wide data gathering verification test for either
         qualification or acceptance. The gate review occurs mid-way through
         Phase 7.

Gate 6   Operational Acceptance Review approves overall system and product
         validation by obtaining customer acceptance and determining
         whether the operations and maintenance organization agrees to, and
         has the ability to, support continuous operations of the system. The
         gate review occurs at the end of Phase 7.

Gate 7   Disposal Review authorizes termination of the Operations and
         Maintenance life cycle phase and disposes of system resources. The
         gate review occurs at the end of Phase 8 and results in Phase 9.




                                  - 84 -
EXECUTIVE REVIEW BOARDS RESPONSIBLE FOR CONTROL
                  GATE REVIEWS

  •   The IMPRB leads the System Concept Review and the
      Acquisition Plan Review (Control Gates 1 and 2) and ensures
      that all IT acquisitions are aligned and comply with FBI
      policies, strategic plans, and investment management
      requirements.

  •   The Technical Review Board leads the Final Design Review
      (Control Gate 3) and ensures that IT systems comply with
      technical requirements and meet FBI needs.

  •   The Change Management Board leads the Deployment
      Readiness Review, System Test Readiness Review,
      Operational Acceptance Review and the Disposal Review
      (Control Gates 4 through 7) and controls and manages
      developmental and operational efforts that change the FBI's
      operational IT environment.

  •   The Enterprise Architecture Board ensures that IT systems
      comply with Enterprise Architecture requirements.

  •   The IT Policy Review Board establishes, coordinates,
      maintains and oversees implementation of IT policies.




                             - 85 -
      PROJECT LEVEL REVIEWS: CONCEPT EXPLORATION PHASE
                    THROUGH DESIGN PHASE

      REVIEW NAME                              DESCRIPTION

1. Mission Needs Review      Examines the user need or technological
                             opportunity, the deficiencies in the current set of
                             systems, alternative and the proposed solution,
                             and a business case or rationale for further
                             investigating changes to the FBI’s information
                             systems.

2. System Specification      The decision point to proceed with the
Review                       development of an Acquisition Plan, the allocation
                             of high level system requirements to segment
                             specifications, and the development of Project
                             Plans that will manage the acquisition.

3. Source Selection          Approves source selection results and authorizes
Acquisition Review           contract negotiations.

4. Contract Implementation   The first Review between the customer and the
Review                       solution provider following a contract award.


5. Requirements              Ensures the solution provider has a full
Clarification Review         understanding of the requirements for the system
                             or segment and can articulate this understanding
                             through proposed implementations of the
                             requirement.

6. Design Concept Review     A review of the decomposition of the system or
                             product (hardware, software, and manual
                             operations).

7. Preliminary Design        Can be a single event or can be spaced out over
Review                       time during the Design Phase to cover logical
                             groupings of configuration items.




                                   - 86 -
- 87 -
                                                          APPENDIX 7

        PMO STAFF POSITIONS AND RESPONSIBILITIES

Program Leadership

      The Sentinel program leadership consists of a program manager
and a deputy program manager who are responsible for ensuring the
overall success of the Sentinel project.

Direct Reporting Staff

     The direct reporting staff includes the following:

        •   Contract Officer — oversees all Sentinel contract
            executions, including contractor task-order compliance,
            prepares change orders or other contract modifications as
            required, and also monitors contractual performance.

        •   Contract Officer Technical Representative — assists
            Contracting Officer in technical oversight.

        •   General Counsel — provides legal advice to the program
            manager and deputy program manager.

        •   Communications — assists the program manager in
            relaying program information.

Organization Change Management

       Organizational Change Management (OCM) is responsible for
preparing Sentinel users to accept and utilize Sentinel’s capabilities.
OCM provides a formal path for receiving new user-originated
requirements during the implementation of the system. The OCM
team includes special agents, intelligence analysts, and professional
staff who are on temporary duty assignments to the Sentinel program.

Business Management

      The Business Management organizational unit develops and
maintains program investments, budget, and spending plans. The
team also monitors, analyzes, and reports on the program’s Earned
Value Management status.



                                - 88 -
Administrative Support

     The Administrative Support staff directs the administrative and
support services required by the Program Management Office.

Program Integration

      The Program Integration staff is responsible for developing and
maintaining the Sentinel project baseline and then tracking progress
and risks against that baseline. This team is also responsible for
coordinating external interfaces development plans and dependency
schedules.

System Development.

      The System Development staff is responsible for the overall
system design and its implementation increments. This team is also
responsible for the technical performance outcome of the Sentinel
program and is accountable for the systems requirements and the
delivery of a system whose technical performance meets users’
expectations.

Transition

       The Transition team is responsible for all activities associated
with the transition of Sentinel phase capability from its development to
eventual use by the FBI user community.

Operations and Maintenance

       The Operations and Maintenance staff is responsible for the
operations and maintenance of the deployed Sentinel capabilities until
it reaches full operation capability. At which time this responsibility
will be transferred to the FBI’s Information Technology Operations
Division.




                                 - 89 -
                                          APPENDIX 8

THE FEDERAL BUREAU OF INVESTIGATION’S RESPONSE TO THE
                    DRAFT REPORT




                        - 90 -
- 91 -
- 92 -
                                                          APPENDIX 9

      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

       Pursuant to the OIG’s standard audit process, the OIG provided
a draft of this audit report to the FBI on October 27, 2006, for its
review and comment. The FBI’s November 7, 2006, response is
included as Appendix 8 of this final report. The FBI concurred with the
five recommendations in the audit report. Our analysis of the FBI’s
response to the five recommendations is provided below.

      The OIG also provided a draft of this report to Lockheed
Martin for its review and comment. The comments Lockheed Martin
provided were incorporated into this final report as appropriate.

Response to Recommendations

1. Resolved. In response to this recommendation, the FBI stated
   that the Sentinel PMO will work with the Finance Division and
   senior FBI management to determine the appropriate amount of
   the management reserve for each phase. The PMO believes that
   11 percent is an appropriate overall reserve amount and that the
   amount of each phase’s reserve may be adjusted based on a
   comprehensive assessment of risk. The FBI also noted that,
   through its Finance Division, the FBI’s Deputy Director governs the
   use of the management reserve. This recommendation can be
   closed when we receive documentation showing the management
   reserve is based on an assessment of the project risks for each
   phase and for the project overall.

2. Resolved. This recommendation is resolved based on the FBI’s
   agreement to periodically update its estimate of total project costs
   as actual cost data is available. The FBI said that since the award
   of the Sentinel contract, the PMO has worked in conjunction with
   Lockheed Martin and the Finance Division to revise projected
   program costs as appropriate. The FBI said it will communicate
   any changes to program costs through budget requests and the
   OMB Exhibit 300 process. This recommendation can be closed
   when we receive documentation showing the FBI has periodically
   updated the estimate of total project costs as actual cost data
   becomes available.




                                 - 93 -
3. Resolved. This recommendation is resolved based on the FBI’s
   agreement to complete contingency plans as required by the
   Sentinel Risk Management Plan. The FBI noted that Version 2 of
   the FBI’s Risk Management Plan, recently released by its Office of
   IT Policy and Planning, requires contingency triggers and
   contingency plans only for high risks. The FBI said the Sentinel
   Risk Management Plan is being revised to comply with this new
   policy. However, the FBI advised us that Sentinel had identified its
   first high risk in mid-October and was developing a contingency
   plan to address it. This recommendation can be closed when we
   receive documentation showing that the FBI has completed
   contingency plans as required by the Sentinel Risk Management
   Plan.

4. Resolved. The FBI agrees with this recommendation, stating that
   it will provide experienced contractors to conduct an independent
   verification and validation process throughout the project. The
   independent verification and validation contractor will report to the
   FBI’s CIO on both the performance of Lockheed Martin and the
   Sentinel PMO. This recommendation can be closed when we
   receive documentation showing that the FBI has ensured that the
   independent verification and validation process is conducted
   through project completion.

5. Resolved. The FBI agrees with this recommendation and said that
   the Sentinel PMO continues to work aggressively to fill government
   and contractor positions. The FBI noted that the two vacancies
   cited in our report represent less than five percent of the PMO’s
   total staff. The Sentinel PMO believes this vacancy rate is
   significantly less than government and industry levels. The FBI
   said that the Sentinel PMO requires contractors to have existing
   security clearances, allowing its contractors to fill vacancies
   usually within 30 days. The six operations and maintenance
   vacancies discussed in our report are currently being finalized for
   recruitment. This recommendation can be closed when we receive
   documentation showing that the FBI has completed hiring for the
   vacant PMO positions needed during the current project phase.




                                 - 94 -
